<html>
<title> - THE FUTURE OF THE NORTH ATLANTIC TREATY ORGANIZATION (NATO)</title>
<body><pre>[Senate Hearing 108-258]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-258
 
      THE FUTURE OF THE NORTH ATLANTIC TREATY ORGANIZATION (NATO)

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 27, 2003

                               __________

         Printed for the use of the Committee on Armed Services



                     U.S. GOVERNMENT PRINTING OFFICE
91-300 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                    JOHN WARNER, Virginia, Chairman

JOHN McCAIN, Arizona                 CARL LEVIN, Michigan
JAMES M. INHOFE, Oklahoma            EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  ROBERT C. BYRD, West Virginia
WAYNE ALLARD, Colorado               JOSEPH I. LIEBERMAN, Connecticut
JEFF SESSIONS, Alabama               JACK REED, Rhode Island
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
JOHN ENSIGN, Nevada                  BILL NELSON, Florida
JAMES M. TALENT, Missouri            E. BENJAMIN NELSON, Nebraska
SAXBY CHAMBLISS, Georgia             MARK DAYTON, Minnesota
LINDSEY O. GRAHAM, South Carolina    EVAN BAYH, Indiana
ELIZABETH DOLE, North Carolina       HILLARY RODHAM CLINTON, New York
JOHN CORNYN, Texas                   MARK PRYOR, Arkansas

                    Judith A. Ansley, Staff Director

             Richard D. DeBobes, Democratic Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

      The Future of the North Atlantic Treaty Organization (NATO)

                             march 27, 2003

                                                                   Page

Grossman, Hon. Marc I., Under Secretary of State for Political 
  Affairs........................................................     5
Feith, Hon. Douglas J., Under Secretary of Defense for Policy....    17

                                 (iii)


      THE FUTURE OF THE NORTH ATLANTIC TREATY ORGANIZATION (NATO)

                              ----------                              


                        THURSDAY, MARCH 27, 2003

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:08 a.m., in 
room SH-216, Hart Senate Office Building, Senator John Warner 
(chairman) presiding.
    Committee members present: Senators Warner, McCain, Inhofe, 
Allard, Collins, Dole, Levin, Bill Nelson, Ben Nelson, Dayton, 
Clinton, and Pryor.
    Committee staff members present: Judith A. Ansley, staff 
director; and Gabriella Eisen, nominations clerk.
    Majority staff members present: Gregory T. Kiley, 
professional staff member; Patricia L. Lewis, professional 
staff member; Lucian L. Niemeyer, professional staff member; 
Lynn F. Rusten, professional staff member; and Scott W. Stucky, 
general counsel.
    Minority staff members present: Richard D. DeBobes, 
Democratic staff director; Evelyn N. Farkas, professional staff 
member; Jeremy L. Hekhuis, professional staff member; Maren R. 
Leed, professional staff member; Gerald J. Leeling, minority 
counsel; Peter K. Levine, minority counsel; and Christina D. 
Still, professional staff member.
    Staff assistants present: Andrew W. Florell, Andrew Kent, 
Jennifer Key, and Nicholas W. West.
    Committee members' assistants present: Darren Dick, 
assistant to Senator Roberts; Jayson Roehl, assistant to 
Senator Allard; James P. Dohoney, Jr., assistant to Senator 
Collins; D'Arcy Grisier, assistant to Senator Ensign; Frederick 
M. Downey, assistant to Senator Lieberman; Richard Kessler, 
assistant to Senator Akaka; William K. Sutey, assistant to 
Senator Bill Nelson; Eric Pierce, assistant to Senator Ben 
Nelson; and Andrew Shapiro, assistant to Senator Clinton.

          OPENING STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe [presiding]. The meeting will come to order. 
In the absence of our chairman, Senator Warner, I will go ahead 
and just read the first paragraph of his statement and just to 
welcome you folks, turn it over to Senator Levin, and then be 
prepared for your opening statements.
    The committee meets today to receive testimony on the 
future of the North Atlantic Treaty Organization (NATO) from 
Ambassador Marc Grossman, Under Secretary of State for 
Political Affairs, and Douglas Feith, Under Secretary of 
Defense for Policy. The committee regrets that General James 
Jones, the Supreme Allied Commander, Europe, and the Commander 
of the U.S. European Command, is unable to be here today due to 
his responsibilities with respect to the ongoing war.
    Let me just say this. I am going to go ahead and, without 
objection, enter this into the record in its entirety. I know 
that Senator Warner is concerned, Secretary Feith, with some of 
the things I have talked to you about before, this new 
relationship, the evolving, the changing relationships that we 
have with the European Union (EU), the question, do you have to 
be anti-American to join the EU? So I hope that you will cover 
some of these things in your opening statement.
    With that, I will enter this in the record and recognize 
the ranking member, Senator Levin.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    The committee meets today to receive testimony on the future of the 
North Atlantic Treaty Organization (NATO) from Ambassador Marc 
Grossman, Under Secretary of State for Political Affairs; and Douglas 
Feith, Under Secretary of Defense for Policy. The committee regrets 
that General James Jones, the Supreme Allied Commander, Europe (SACEUR) 
and the Commander of the U.S. European Command, is unable to be here 
today due to his responsibilities with respect to the ongoing war in 
Iraq.
    Both of our witnesses are well known to this committee. I want to 
thank them for their service to our Nation.
    Today's hearing will focus on the future roles and mission of NATO. 
NATO remains, first and foremost, a military alliance--the most 
successful military alliance in history. Today, the threats to NATO 
member nations do not come from NATO's periphery. There is no Soviet 
Union or Warsaw Pact. The threats--such as terrorism and the 
proliferation of weapons of mass destruction--are transnational in 
nature, and they emanate from regions outside of Europe.
    This was recognized in the Strategic Concept adopted at the 50th 
Anniversary Summit held in Washington in 1999. The Strategic Concept 
envisioned ``out of area'' operations for NATO and specifically noted 
the emergence of non-traditional threats including terrorism and 
proliferation of weapons of mass destruction.
    To remain a viable military alliance, NATO must remain relevant to 
current threats. More than a decade after the fall of the Berlin Wall, 
NATO remains an organization in transition. NATO faces political and 
technical challenges as it seeks to define its role for the future and 
simultaneously expand its membership.
    I note that yesterday in Brussels, NATO members signed accession 
protocols to the North Atlantic Treaty for seven countries--Bulgaria, 
Estonia, Latvia, Lithuania, Romania, Slovakia, and Slovenia. Assuming 
the accession protocols are ratified by all 19 NATO members, these 
seven countries will become members of NATO.
    The Senate will soon be asked to fulfill its constitutional duty to 
provide advice and consent to this proposed amendment to the North 
Atlantic Treaty.
    During this upcoming Senate debate, we will examine a number of key 
questions. First, will these seven nations enhance the military 
effectiveness of the alliance? The technical challenge that has been 
facing NATO for some time is that of the growing capabilities gap 
between the United States and many of the other NATO members. We must 
consider whether this gap could be exacerbated by the addition of these 
seven new members.
    Second, what has been NATO's experience with integrating the three 
members that joined the Alliance in 1999--Poland, Hungary, and the 
Czech Republic? That experience should inform our consideration of this 
next round of enlargement.
    Finally, and most importantly, should NATO consider changing its 
operating procedures so that it is not, in all cases, bound to act by 
consensus? The recent divisive debate over planning for the defense of 
Turkey in the event of war with Iraq demonstrated that it has become 
more difficult to achieve consensus in NATO. In part, this is because 
respective NATO members have different views about today's threats and 
how best to respond to them. Achieving consensus is likely to become 
even more complex if, and when, NATO's membership expands from the 
current 19 to as many as 26 nations.
    On a separate, but related, matter, Senators Levin, Roberts, 
Rockefeller, and I had the pleasure of meeting with General Jones not 
long ago in London, where he shared with us his ideas about possible 
changes to the number and structure of U.S. forces in Europe. The 
committee has a great deal of interest in this subject and would 
welcome hearing from Secretary Feith about the current state of DOD 
thinking on this matter. We will also reschedule a hearing for General 
Jones to present his views to the committee, as soon as practical.
    We welcome our witnesses this morning and look forward to their 
testimony.
    Senator Levin.

                STATEMENT OF SENATOR CARL LEVIN

    Senator Levin. Thank you very much, Mr. Chairman. Thank 
you.
    Since our hearing of last February, a lot of events have 
taken place relative to NATO, within the NATO alliance or in 
cooperation between NATO and the European Union. For instance, 
NATO decided at the Prague Summit in November of 2002 to invite 
Bulgaria, Estonia, Latvia, Lithuania, Romania, Slovakia, and 
Slovenia to begin accession talks to join the alliance, and 
just yesterday those seven countries signed their accession 
protocols, which will now be submitted to NATO capitals for 
ratification.
    Next Monday the EU will take over the follow-on mission to 
the NATO mission in the Former Yugoslav Republic of Macedonia 
that provided protection to international monitors overseeing 
the implementation of the peace plan. The EU's follow-on 
mission in Macedonia, which is being accomplished pursuant to 
the EU's European security and defense policy, has been enabled 
by the NATO-EU Framework Agreement under which there is assured 
EU access to NATO operational planning, the presumption of 
availability to the EU of NATO capabilities and common assets, 
and the European role of the Deputy Supreme Allied Commander, 
Europe (SACEUR), Admiral Feist of Germany, who in this case 
will be the operational commander of the EU-led operation. The 
ground commander will be a French general.
    The EU previously took over the police mission in Bosnia 
from the United Nations on January 13, the EU's first civilian 
crisis management operation, and has expressed its willingness 
to take over the mission of the NATO-led Stabilization Force 
there early in 2004.
    NATO has been carrying out patrolling and surveillance 
activities in the eastern Mediterranean since October 2001, 
after September 11, under Operation Active Endeavor. As an 
extension of Operation Active Endeavor, NATO warships earlier 
this month took on a new mission of escorting allied civilian 
ships through the Straits of Gibraltar, and last month Germany 
and The Netherlands took over command of the International 
Security and Assistance Force in Afghanistan, where France is 
working hand in hand with the United States and Britain to 
establish and train the Afghan national army.
    Now, while those events are positive, there are a number of 
developments on the negative side of the ledger. The 
differences among NATO members and the U.N. Security Council 
over the issue of Iraq carried over into the North Atlantic 
Council when Turkey invoked article 4 of the Washington Treaty 
and the Council could not reach consensus on the timetable for 
military planning.
    By resorting to NATO's Defense Planning Committee, from 
which France has excluded itself, the alliance was finally able 
to reach consensus at a team to commence planning for the 
defense of Turkey. Pursuant to that planning, NATO has deployed 
surveillance aircraft and missile defenses to assist in 
Turkey's deployment in Operation Display Deterrence.
    Reportedly, a dispute is developing at the U.N. Security 
Council over new resolutions dealing with coalition control 
over and use of Oil for Food money for Iraq's reconstruction.
    Finally on the negative side, there is a continuing problem 
of the gap between the military capabilities of the United 
States and its NATO partners. That gap is graphically 
illustrated by the fact that America's annual defense budget is 
now nearly double that of the 18 other NATO countries combined, 
that while the seven invited countries are striving to hold 
military spending at 2 percent of gross domestic product (GDP), 
Germany's military spending, for instance, last year was just 
1.5 percent of its GDP.
    In February of last year at our first hearing on the future 
of NATO, I said that, ``depending on whom you talk to, NATO's 
glass is either half-full or half-empty.'' I went on to say 
that I am from the glass is half-full camp. I remain in that 
camp, but it is going to take a good deal of hard work, 
dedicated diplomacy, and good faith on both sides of the 
Atlantic for the damage done to our relations with a number of 
our NATO allies and perhaps to the alliance to be overcome.
    Napoleon was reported to have said the only thing worse 
than fighting in a coalition is fighting against one. Because 
of the advantages that accrue from participation in an 
alliance, including the legitimacy that comes from decisions 
reached by 19 sovereign nations and soon by 26 sovereign 
nations, I believe that all concerned will work to overcome the 
problems that now face the alliance.
    But having said that, I want to restate a belief that I 
have stated before, that the enlargement of NATO to 26 nations 
and the difficulties that came from the need for consensus to 
even plan for the defense of Turkey require that we examine 
some major NATO issues. For example, does the alliance need a 
mechanism for the suspension of a NATO member nation that is no 
longer committed to the alliance's fundamental values--
democracy, individual liberty, and the rule of law. I believe 
it does and have believed that for a long time.
    Additionally, should the unwillingness of one NATO member 
to agree with all the other member nations and thus precluding 
a consensus be allowed to prevent the alliance from taking 
action? I believe we have to find a way to overcome that 
potential problem.
    I look forward to our witnesses' testimony on these and 
other issues and I join our chairman in welcoming both of them 
here today.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator.
    We now turn to our witnesses. Ambassador Grossman, we will 
start with you.

 STATEMENT OF HON. MARC I. GROSSMAN, UNDER SECRETARY OF STATE 
                     FOR POLITICAL AFFAIRS

    Ambassador Grossman. Senator Inhofe, Senator Levin, thank 
you very much, members of the committee. As always, it is an 
honor for both Under Secretary Feith and me to be here today.
    May I make two introductory comments first of all to convey 
the sympathies on behalf of the Department of State and I am 
sure of the Department of Defense as well on the passing of 
Senator Moynihan; and second also, before we do anything else, 
to thank you on behalf of the men and women of the State 
Department for the support that you give to us and to our 
diplomacy. We appreciate that very much. It is extremely 
important.
    As Senator Levin has just recalled, Doug and I were here 11 
months ago to outline a vision for the future of NATO. I will 
say that, thanks to the strong support we received from this 
committee and from many other members of Congress, allied heads 
of state and government last November in Prague adopted this 
vision and launched what I would consider to be an historic 
transformation of the alliance.
    President Bush spoke to some students in Prague the night 
before the alliance got together and he said that the alliance 
would--and I quote here--``make the most significant reforms 
NATO has seen since 1949, reforms which will allow the alliance 
to effectively confront new dangers.''
    If I could just take a moment or two to answer the question 
that you all put to us in your letter of invitation about what 
is the future of NATO and is this alliance still an important 
part of the defense of the United States, I say first that for 
50 years NATO has been the anchor of western security, and the 
end of Soviet communism did not diminish NATO's importance.
    The democracies of NATO made and keep the peace in the 
Balkans. In 1999, NATO stopped ethnic cleansing in Kosovo. As 
Senator Levin said in his opening remarks, NATO is completing a 
mission in Macedonia at the end of this month that has brought 
order to this new democracy.
    NATO responded to September 11 by invoking article 5: An 
attack on one member regarded as an attack on all. NATO sent 
Airborne Warning and Control Systems (AWACS) to patrol defense 
air space, logging 4,300 hours, 360 sorties, with 800 crew 
members from 13 different nations. As Senator Levin pointed 
out, NATO naval forces are still very active in this effort 
against terrorism.
    Thirteen NATO allies contribute to Operation Enduring 
Freedom. NATO allies are part of and lead the International 
Stabilization Force in Kabul. As the ranking member said, 
German and Dutch troops replaced Turkish forces in 
International Security and Assistance Force (ISAF), who in turn 
had replaced British forces. Lord Robertson and some of our 
NATO allies would like to see NATO take a larger role in ISAF 
and this certainly makes sense to me.
    I would say, Senator Levin, in ``half-full, half-empty,'' 
that I consider NATO still to be the central organizing agent 
for transatlantic cooperation, because it represents not just 
our military ties with these countries, but, also what I would 
consider to be a real community of values and shared commitment 
to democracy, free markets, and the rule of law, and those are 
extremely important parts of the glue that holds this alliance 
together. Because I believe that NATO is the key to defense of 
the United States I also believe that NATO must continue to 
lead and also to adapt.
    Mr. Chairman, members, last year, 11 months ago, we agreed 
and I think we would still agree today that the gap in military 
capabilities that Senator Levin talked about and many of you 
have also mentioned between the United States and Europe is the 
most serious long-term problem facing the alliance. I am 
pleased to say that at the Prague Summit last November, NATO's 
leaders decided to do something to close this gap.
    They put forward what they called the Prague Capabilities 
Commitment. It contains all of the ideas that we discussed when 
we were together 11 years ago, that you called for, because 
European allies agreed to spend smarter, pool their resources, 
and pursue specialization. Let me give you a couple of 
examples.
    First, Germany is now leading a 10-nation consortium to get 
more airlift. Seven NATO nations are participating in another 
consortium to get more sealift. The Netherlands is taking the 
lead on precision-guided missiles and has committed $84 million 
to equip their F-16s with smart bombs. I would report to you 
that this is a good start, but that much, much more follow-
through will be critical to the success of this initiative.
    The other part of the Prague Capabilities Commitment was to 
create a NATO response force. We believed and I testified and 
Doug testified at that time that we were in favor of having 
NATO forces equipped with new capabilities and organized into 
highly-ready land, air, and sea forces able to carry out 
missions anywhere in the world, because we believe that NATO 
can and, where appropriate, should undertake military 
operations outside its traditional area.
    The NATO response force will be a force of approximately 
25,000 troops, with land, sea, and air capability, deployable 
worldwide on 30 days' notice. NATO's leaders at Prague agreed 
that this response force should be ready for exercises by 
October 2004 and mission-ready by October 2006. NATO also 
decided at that Prague summit that it was time to streamline 
the NATO command structure, and when allied defense ministers 
get together in June they will consider a leaner and we believe 
more responsive, more modern command structure.
    Mr. Chairman, we also spoke 11 months ago about our 
determination to extend NATO membership to the new democracies 
of Central and Eastern Europe. As Senator Levin just said, at 
the Prague summit, NATO leaders invited Bulgaria, Estonia, 
Latvia, Lithuania, Romania, Slovakia, and Slovenia to join 
NATO. This invitation followed intensive work on the part of 
NATO and certainly on the part of these seven nations through 
NATO's membership action plan. The alliance worked with all of 
the aspirants to encourage political, economic, and military 
reform.
    Since Prague, the seven invitees have been working even 
harder with NATO, and yesterday, as Senator Levin mentioned, 
presented and signed the accession protocols to join the 
alliance. I would report to you that I spoke this morning to 
Ambassador Burns and he said it was a tremendous event, and one 
of the things that made it so important was that each foreign 
minister of the countries that signed paid special tribute to 
the U.S. Congress for their support for their membership and 
for their protocols. So we will be sending these protocols to 
you for your advice and consent and I hope that, after real 
debate and conversation, that you will support them.
    I believe, Senators, that the accession of these seven 
countries is about the future of NATO and will be good and 
directly benefit U.S. interests. Why? They are strong 
Atlanticists. They are allies in the war on terror. They have 
already contributed to Operation Enduring Freedom and to the 
International Security and Stabilization Force in Kabul.
    I had a chart done up and, since I do not believe that 
testimony should be eye charts, I apologize; this chart is too 
small. But I have given you each one in front of you. It takes 
you through the military contributions that our invitees have 
already made in the Balkans, in the war in Afghanistan, in 
Operation Enduring Freedom, cooperation in Iraq, cooperation on 
post-conflict and reconstruction.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    I hope that you might, when you have a chance, take a look 
at those charts, because they show that these are people who 
are already behaving as allies. All seven have supported the 
position of the United States on Iraq. All of the invitees have 
committed to spending at least 2 percent of their GDP on 
defense. As you can see on this chart--and again, I have given 
you one so you do not have to do an eye test--all seven already 
spend a higher percentage of their GDP on defense than almost a 
third of current NATO members.
    I think this is a telling chart. Although all of them have 
not made the 2 percent level, you can see where they stand in 
connection or in comparison to current allies. Their publics 
strongly support NATO. On March 23, Slovenians went to the 
polls to support NATO membership. The ``yes'' vote was 66 
percent. In Romania and Bulgaria and the three Baltic States, 
support for NATO membership stands at over 70 percent. Together 
these allies will bring to the alliance almost 200,000 new 
troops, which is about the same number as the first 
enlargement.
    What of future enlargements? This is a conversation we have 
had in this committee and privately in your offices. I believe 
that the door to NATO should remain open. In that speech he 
gave which put us on the path to this second expansion at 
Warsaw University in 2001, President Bush said that, ``All of 
Europe's democracies, from the Baltic to the Black Sea and all 
that lie between, should have the same chance for security and 
freedom and the same chance to join the institutions of Europe 
as Europe's other democracies have.''
    So we welcome the continued pursuit of membership by 
Albania, Croatia, and Macedonia, and we will continue to 
consult with them and work with them on their membership action 
plan programs as well as others who may seek membership in the 
alliance.
    Mr. Chairman, the third area that we discussed last 
February was the agreement between NATO and Russia to establish 
the NATO-Russia Council. I reported to you at that time that 
work was ongoing, and that work was completed in time for a 
summit meeting between NATO and Russia in Rome last May. Over 
the past 6 months, NATO and Russia have been working on 
projects in key areas, such as combating terrorism, 
peacekeeping, civil emergency planning, and nonproliferation. I 
believe this is also a part of the future of NATO.
    We are also engaged in developing partnership with Ukraine. 
Unfortunately, this relationship has faltered due to the 
authentification of a recording that showed that President 
Kuchma had authorized the transfer to Iraq of the Kolchuga 
radar system. But because we recognize that Ukraine is so 
important, there is a NATO-Ukraine action plan which calls upon 
the Ukrainians to make political, military, and economic 
reforms if they wish to get closer to the alliance. Of course 
we have that broad web of connections through the Partnership 
for Peace with our Central Asian partners. I go back to 
thinking that, how would we have known that a decade ago we 
would need those partners to pursue Operation Enduring Freedom?
    Finally, Iraq. We are at war with Iraq. Is there a role for 
NATO? Last December, Paul Wolfowitz, the Deputy Secretary of 
Defense, presented in Brussels ideas for possible NATO 
participation in Iraq. In addition to the defense of Turkey, he 
suggested that NATO play a role in post-conflict peacekeeping 
and possibly in stabilization. This could include the security 
and destruction of weapons of mass destruction. As I told NATO 
ambassadors at a meeting of the North Atlantic Council last 
month, for me these ideas still remain on the table.
    As Senator Levin said, and you all have seen in the press 
and in the reporting, in February the alliance did go through a 
bruising debate about defense support for Turkey under article 
4 of the North Atlantic Treaty. The important point for me is 
that in the end the alliance arrived at the outcome that we 
sought and the Defense Planning Committee directed military 
assistance to Turkey to address the threat of an attack from 
Iraq and that military assistance, as Senator Levin said, is 
now in place. NATO deployed AWACS, Patriot missiles, nuclear, 
biological, and chemical defense teams.
    That debate in February did damage the alliance and I do 
not think we should say anything other than the truth here. It 
is my view, though, and I use a quotation from Lord Robertson, 
who said that this was a hit above the water line for NATO and 
that NATO will recover. As Senator Levin said, it will take 
good faith and good diplomacy on behalf of all of us to have 
that recovery take place as quickly as possible.
    But I believe that NATO will recover because it is 
essential that NATO continues to knit together the community of 
European and North American democracies as an alliance of 
shared values and collective security. I think it would be 
wrong to draw the conclusion from last February that we should 
stop pushing NATO to change to address new threats. If 
anything, I believe we should redouble these efforts.
    I also think that it would be wrong to conclude that the 
transatlantic relationship has been destroyed or even 
permanently harmed. At the end of the day, it is to NATO that 
we will all return to seek common ground and cooperation on the 
momentous issues facing the transatlantic community.
    Mr. Chairman, thank you very much.
    [The prepared statement of Ambassador Grossman follows:]

             Prepared Statement by Ambassador Marc Grossman

    Senator Warner, Senator Levin, members of the committee, thank you 
for the opportunity to speak with you today. As always, it is an honor 
for me to be here.
    I came before this committee 11 months ago and outlined a vision 
for the future of NATO.
    Thanks to the strong support we received from you, Allied heads of 
state and government, meeting in Prague in November 2002, adopted this 
vision and launched an historic transformation of the Alliance.
    Speaking to students in Prague on the eve of that Summit, President 
Bush promised that the Alliance would ``make the most significant 
reforms in NATO since 1949--reforms which will allow the Alliance to 
effectively confront new dangers.''
    Let me answer the question in your letter of invitation, Mr. 
Chairman and Senator Levin, about NATO's continuing importance to U.S. 
security.
    For 50 years NATO has been the anchor of western security.
    The end of Soviet Communism did not diminish NATO's importance.

        <bullet> The democracies of NATO made and keep the peace in the 
        Balkans.
        <bullet> In 1999, NATO stopped ethnic cleansing in Kosovo.
        <bullet> NATO's just-completed mission in Macedonia has also 
        brought order to that new democracy.
    NATO responded to September 11 by invoking Article V; an attack on 
one member will be regarded as an attack on all. NATO sent AWACS to 
patrol U.S. airspace, logging 4,300 hours; 360 sorties, with 800 
crewmembers from 13 nations.
    Thirteen Allies now contribute to Operation Enduring Freedom.
    NATO Allies lead the International Stabilization force in Kabul.
    German and Dutch troops replaced Turkish troops in ISAF, who 
replaced British forces. Lord Robertson and some of our Allies would 
like to see NATO take a larger role in ISAF. This makes sense to me.
    NATO is the central organizing agent for Trans-Atlantic 
cooperation. It represents a community of common values and shared 
commitments to democracy, free markets and the rule of law.
    NATO is key to the defense of the United States.
    So NATO must continue to lead and to adapt.

                            NEW CAPABILITIES

    Last year, we talked about the gap in military capabilities between 
the United States and Europe as the most serious long-term problem 
facing NATO.
    At the Prague Summit in November, NATO's leaders decided to close 
this gap.
    The Prague Capabilities Commitment contains the ideas I presented 
to you last year. European Allies agreed to ``spend smarter,'' pool 
their resources and pursue specialization. For example:

        --Germany is leading a 10-nation consortium on airlift.
        --Seven nations are participating in another consortium on 
        sealift.
        --The Netherlands is taking the lead on precision-guided 
        missiles and has committed $84 million to equip their F-16s 
        with smart bombs.

    This is a good start. Follow-through will be critical.
    NATO's leaders also created at Prague the NATO Response Force. We 
need NATO forces equipped with new capabilities and organized into 
highly ready land, air and sea forces able to carry out missions 
anywhere in the world.
    NATO can and, in appropriate circumstances, should undertake 
military operations outside its traditional area of operations.
    The NATO Response Force will be a force of approximately 25,000 
troops, with land, sea, and air capability, deployable worldwide on 30 
days notice. NATO leaders agreed that the NATO Response Force should be 
ready for exercises by October 2004 and mission-ready by October 2006.
    NATO also needs to streamline its command structure. When Allied 
Defense Ministers meet in June they will consider a leaner and more 
responsive, more modern command structure.

                              NEW MEMBERS

    We also spoke last year of our determination to extend NATO 
membership to the new emerging democracies of Central and Eastern 
Europe.
    At the Prague Summit, NATO leaders invited seven new democracies--
Bulgaria, Estonia, Latvia, Lithuania, Romania, Slovakia, and Slovenia--
to join NATO.
    This invitation followed an intensive program of preparation under 
NATO's Membership Action Plan. The Alliance worked with the aspirants 
to encourage political, economic and military reform.
    Since Prague, the seven invitees have been working with NATO on 
preparing the accession protocols for joining the Alliance. In Brussels 
yesterday, NATO Ambassadors signed the protocols to begin the formal 
process of admitting the invitees into the Alliance. We will transmit 
the protocols to the Senate for its advice and consent. We hope you 
will support them.
    The accession of these seven countries to NATO will directly 
benefit U.S. interests.
    These are strong Atlanticists. They are Allies in the War on 
Terror. They have contributed to Operation Enduring Freedom and to the 
International Security and Stabilization Force in Kabul.

                (Reference Military Contribution Charts)

    At Burgas, Bulgaria provides basing for U.S. transport aircraft 
supplying Operation Enduring Freedom. Bulgaria also sent an Nuclear 
Biological and Chemical decontamination unit to Afghanistan.
    Estonia sent a team of explosive experts to Afghanistan.
    Lithuania deployed special operations forces to Afghanistan last 
year, and this year provided a team of medical personnel.
    Romania has an infantry battalion serving in Kandahar and military 
police unit and transport aircraft serving Kabul.
    Slovakia deployed an engineering unit to Kabul.
    Slovenia has provided assistance with demining in Afghanistan.
    They support the position of the United States on Iraq.
    All of the invitees have committed to spending at least 2 percent 
GDP on defense, and as you can see, all seven already spend a higher 
percentage of their GDP than almost a third of the current NATO 
membership.

                   (Reference Defense Spending Chart)

    Their publics strongly support NATO.
    On March 23, Slovenians went to the polls to support NATO 
membership. The ``Yes'' vote won with 66 percent. In Romania, Bulgaria 
and the three Baltic states, support for NATO stands at above 70 
percent.
    Together the invitees will also contribute as many as 200,000 new 
troops to the Alliance--approximately equal to the number added by 
NATO's last enlargement in 1999.
    What of future enlargements? The door to NATO should remain open. 
In his speech at Warsaw University in 2001, the President stated that, 
``all of Europe's democracies, from the Baltic to the Black Sea all 
that lie between should have the same chance for security and freedom 
and the same chance to join the institutions of Europe--as Europe's old 
democracies have''.
    We welcome the continuing pursuit of membership by Albania, 
Croatia, and Macedonia. We will continue to consult closely with these 
nations on their Membership Action Plan programs as well as with others 
who may seek membership in the future.

                           NEW RELATIONSHIPS

    During my appearance here last February, I noted the agreement 
between NATO and Russia to establish the NATO-Russia Council.
    Work on establishing the Council went on through the spring and 
culminated last May in a summit meeting in Rome attended by President 
Bush, President Putin and NATO heads of state and government to 
formally establish the NATO-Russia Council.
    Over the past 6 months, NATO and Russia have been working on 
projects in key areas such as combating terrorism, peacekeeping, civil 
emergency planning and non-proliferation.
    NATO is also engaged in developing a parallel partnership with 
Ukraine. Unfortunately, this relationship has faltered due to the 
authentication of a recording in which President Kuchma authorized the 
transfer to Iraq of the Kolchuga system.
    NATO also continues to develop a broad web of partners throughout 
Europe, the Caucasus, and Central Asia. When NATO inaugurated 
Partnership for Peace nearly a decade ago, we could not have imagined 
that we would one day rely on our Central Asian partners to help defeat 
an enemy of the Alliance.

                                  IRAQ

    Today we are at war in Iraq. Is there a role for NATO?
    Last December, Deputy Secretary of Defense Paul Wolfowitz presented 
in Brussels ideas for possible NATO participation in Iraq. In addition 
to the defense of Turkey, he suggested that NATO play a role in post-
conflict peacekeeping and stabilization. This could include WMD 
security and destruction. As I told NATO Ambassadors last month, these 
ideas are still on the table.
    In February, the Alliance went through a bruising debate about 
defense support for Turkey under Article IV of the NATO Treaty.
    The most important point is that the Alliance arrived at the 
outcome we sought. The Defense Policy Committee directed military 
assistance to Turkey to address a threat of attack from Iraq. That 
military assistance is now in place: NATO deployed AWACs planes, 
Patriot missiles, and Nuclear, Biological and Chemical defense teams.
    This disagreement did damage the Alliance. It is my view, however, 
as Secretary General Robertson himself said afterwards, that this was a 
hit above the waterline and that NATO would recover.
    It is essential that NATO continues to knit together the community 
of European and North American democracies as an Alliance of shared 
values and collective security.
    It would be wrong to draw the conclusion that we should stop 
pushing NATO to change to address these new threats. If anything, we 
need to redouble those efforts. It would be wrong to conclude that the 
trans-Atlantic relationship has been destroyed or even permanently 
harmed.
    At the end of the day, it is to NATO that we will all return to 
seek common ground and cooperation on the momentous issues facing the 
trans-Atlantic community.

    Chairman Warner [presiding]. Thank you very much, 
Ambassador Grossman. I apologize for my tardiness, but we each 
morning conduct our briefings with the various departments and 
agencies, basically Defense and State, on the Iraq situation. 
So I was detained.
    Secretary Feith.

STATEMENT OF HON. DOUGLAS J. FEITH, UNDER SECRETARY OF DEFENSE 
                           FOR POLICY

    Secretary Feith. Thank you, Mr. Chairman. I too would like 
to start by mentioning Senator Moynihan's passing. He was an 
exemplary Senator and he was an erudite voice for the United 
States in the world, and he will be missed.
    I would also like to thank the committee for the support 
that you give to the Defense Department and in particular to 
the men and women of our Armed Forces. It is important, it is 
much appreciated, and it is a great contribution to the 
country.
    Chairman Warner. We thank you, Mr. Secretary, for your 
thoughts.
    Secretary Feith. Mr. Chairman, if I may, I would like to 
ask that my written statement be put in the record.
    Chairman Warner. Without objection, both statements in 
their entirety will be in the record.
    Secretary Feith. Thank you.
    Mr. Chairman, members of the committee: I thank you for the 
opportunity to meet with you this morning to discuss the future 
of NATO. The alliance has had to rethink its nature and role 
over the last dozen years or so, impelled most forcefully by 
the end of the Cold War and then by the start of the global war 
on terrorism. The West's victory in the Cold War, though 
largely to NATO's credit, caused many people to question 
whether NATO had a continuing reason for being. The global war 
on terrorism I believe has rather clearly answered the question 
in the affirmative, the details having just been provided by 
Ambassador Grossman.
    The strategic essence of the war on terrorism is the danger 
to open societies posed by terrorist networks and their state 
sponsors around the globe. That danger is especially grave in 
light of the chemical, biological, and nuclear weapons 
ambitions of leading state sponsors of terrorism. To counter 
that danger, the United States and our allies need an ability 
to manage multiple contingencies simultaneously in widely 
separated areas of the world.
    Success in dissuading, deterring, and defeating our enemies 
in the war on terrorism requires strategies, capabilities, and 
command structures that allow for flexibility and quick action. 
We need a set of diverse tools for the job. As for the military 
tools, we need rapidly-usable, long-range, and lethal strike 
capabilities in response to good intelligence about unexpected 
events.
    In the war on terrorism, it is useful for the United States 
to have allies, and NATO has contributed valuably to the war 
effort. The September 11, 2001, attack on the United States 
resolved a debate within NATO as to whether regions beyond the 
North Atlantic arena are out of area. NATO member states now 
realize that responding to threats emanating from beyond Europe 
is part of NATO's mission. The alliance recently decided to 
support Germany and The Netherlands, for example, in their 
leadership in Afghanistan of the International Security 
Assistance Force, a mission that brings NATO well out of its 
traditional geographic domain.
    Mr. Chairman, I consider the term ``international 
community'' a loose term, because the world's nations do not, 
alas, adhere in common to key philosophical principles. But 
NATO is accurately referred to as the Atlantic Community. The 
European and North Atlantic allies do in fact share a 
commitment to democracy and individual liberty. Furthermore, 
our economies are thoroughly intertwined. In bad times, the 
United States has stood with Europe and, as demonstrated in the 
aftermath of September 11, Europe has stood with the United 
States.
    We have our intra-community disagreements, as I will 
discuss further in my testimony, but the degree of harmony in 
the policies and interests of the NATO allies is rare among 
multinational organizations.
    The North Atlantic Treaty serves as a foundation for 
transatlantic military cooperation. Ambassador Grossman has 
reviewed examples of such cooperation in the Balkans, in 
Afghanistan, and elsewhere and I will not go over this ground 
again. There is alliance-wide value in the forward presence in 
Europe of U.S. military forces. The bases that the United 
States uses in Europe have often facilitated the projection of 
American military forces to theaters of operation around the 
world. Our forward presence allows us to develop among American 
and European soldiers and units the interoperability and 
familiarity necessary for combined military operations.
    As you all know, we are now working to enlarge the 
alliance. Senator Levin referred to yesterday's event, the 
signing of the accession protocols in Brussels by the new NATO 
aspirants, Bulgaria, Estonia, Latvia, Lithuania, Romania, 
Slovakia, and Slovenia. Our support for their integration into 
NATO is matched by their enthusiasm to contribute to our common 
security.
    These seven countries have already been acting de facto as 
allies through participation in NATO's Balkans missions, 
Operation Enduring Freedom, and the Kabul peacekeeping force. 
Marc Grossman mentioned their support for Operation Iraqi 
Freedom. Several have deployed troops to the Iraq theater. When 
they join the alliance, these seven will strengthen 
transatlantic ties. They will bring with them their fresh 
appreciation of the value of freedom.
    If NATO is to fulfill its security tasks, it must be able 
to deploy forces with global reach that are agile, lethal, and 
technologically superior to any challengers. For this purpose, 
NATO leaders at the Prague summit last November launched a 
program to reform NATO's command and force structures.
    A key element of the program is the allies' commitment to 
establish the NATO Response Force. If implemented to the 
standards proposed by the United States, the Response Force 
will be able to deploy with advanced notice measured in days, 
not months. Its elements will be able to execute the entire 
spectrum of combat operations. As Marc mentioned, our goal is 
for the force to be fully operational by October 2006. We 
expect the force to become a catalyst for NATO transformation 
efforts.
    At Prague, the heads of state and government also approved 
an outline for a streamlined NATO command structure. 
Operational commands will be reduced in number from 23 to 16. 
This will make more efficient use of financial and manpower 
resources and, more importantly, NATO commanders will have 
headquarters that are more mobile, joint, and interoperable. 
The establishment of a new functional command, the Allied 
Command Transformation in Norfolk, Virginia, will provide a new 
engine to promote military transformation across the entire 
alliance.
    Now for a few words about problems facing the alliance. 
NATO's first challenge is for allies to remedy their military 
shortcomings. NATO will not be able to perform its military 
missions if it does not fix longstanding shortfalls in such 
areas as strategic lift, communications, nuclear, biological, 
and chemical defense equipment, and precision-guided munitions.
    Allies promised to redress these shortcomings through the 
Prague Capabilities Commitment, but NATO suffers from a long 
history of unfulfilled force goals. Continued failure in this 
regard will jeopardize the NATO Response Force. Allied 
contributions to NATO Response Force rotations must provide the 
capabilities envisioned at Prague if the force is to evolve 
from a paper concept to a fighting force.
    A second important challenge, as alluded to in Senator 
Levin's remarks, is NATO's consensus rule. Will NATO be able to 
achieve consensus in the future, given policy differences among 
the allies and the increase in the number of allies? The 
dangers to allies posed by the nexus of terrorism, state 
sponsors of terrorism, and weapons of mass destruction may not 
emerge from Europe or even from Europe's periphery, but from 
distant parts of the globe.
    In the future it is unlikely that NATO will face threats 
over which all 19 or 26 members would have to go to war all 
together. As demonstrated in Afghanistan and Iraq, unanimity or 
consensus for action within NATO will not necessarily be the 
norm. Some members of this committee, when we met last year to 
discuss NATO, suggested that it may be time to modify NATO's 
decisionmaking rules. The recent Iraq-related disagreements 
within the alliance, in which France and Germany put themselves 
at odds with virtually every other ally regarding the defense 
of Turkey, have brought the question to the fore.
    I would like to make two points to launch our discussion 
here of this issue. First, the consensus rule has proven 
valuable in certain important ways. It has been a means to 
force nations to make decisions and it has tended to create 
pressure for unified positions rather than encourage 
divisiveness and obstructionism.
    Second, the absence of consensus does not and should not 
stop NATO members from acting militarily outside of NATO as 
their own interests may require. When NATO members so act, they 
can benefit from the alliance by cooperating with allies, whose 
military capabilities are available or usable because of the 
interoperability, combined training, combined doctrine, and the 
like that is attributable to alliance activities.
    Now, as to the recent problem of France's regrettable 
conduct within NATO, French efforts to block steps to enhance 
Turkey's security against possible Iraqi chemical, biological, 
or other attacks reflected a deliberate decision to block 
initiatives important to the alliance. It raised questions not 
only about NATO's decisionmaking, but its ability to make good 
on its obligation to member states.
    Fortunately, the majority of current allies value NATO for 
the links it provides between Europe and North America. NATO 
enlargement and EU enlargement promise to reinforce in those 
institutions the ranks of those seeking close partnership with 
the United States. On issues of transatlantic concern, 
divisions appear more frequently within Europe than across the 
Atlantic.
    Finally, Mr. Chairman, I would like to close with a comment 
on the future of the U.S. force presence in Europe. When 
President Bush asked Mr. Rumsfeld to serve as Secretary of 
Defense, he asked him to review our defense posture around the 
world. The Defense Department's 2001 Quadrennial Defense Review 
called for reconfiguring the U.S.'s global military posture in 
light of changes in the international security environment. We 
have been examining our posture and presence across the globe. 
This work aims to ensure that our military forces are 
appropriately structured, equipped, and deployed. We are 
rethinking our so-called ``footprint'' to take account of our 
key strategic concepts, for example the need for strategic and 
operational flexibility, the unpredictability of future 
challenges, and the low probability that our forces will be 
used in the immediate vicinity of where they are based.
    We are thinking long term. Our decisions about where we 
want to base, exercise, and stage our forces are not being 
driven by transient considerations of current events. Our 
approach is to establish a presence appropriate to each region. 
We aim to diversify access, develop more adaptable 
expeditionary forces, promote greater allied contributions, and 
strengthen command structures to support our national security 
strategy.
    We recognize the sensitivity of any changes to U.S. force 
posture and will consult with Congress, allies, NATO, and 
partners. In all events, Mr. Chairman, we expect that NATO will 
play a key role in the U.S. national security policy for the 
foreseeable future.
    Thank you.
    [The prepared statement of Secretary Feith follows:]

              Prepared Statement by Hon. Douglas J. Feith

    Mr. Chairman, members of the committee, thank you for this 
opportunity to discuss the future of the North Atlantic Treaty 
Organization (NATO).
    The Alliance has had to rethink its nature and role over the last 
dozen years or so, impelled most forcefully, first, by the end of the 
Cold War and then by the start of the global war on terrorism.
    The West's victory in the Cold War, though largely to the credit of 
NATO, caused many people to question whether NATO had a continuing 
reason for being. The global war on terrorism, I believe, has rather 
clearly answered the question in the affirmative.
    The strategic essence of the war on terrorism is the danger to open 
societies posed by terrorist networks and their state sponsors around 
the globe. That danger is especially grave in light of the chemical, 
biological, and nuclear weapons ambitions of leading state sponsors of 
terrorism.
    To counter that danger, the United States and our allies need an 
ability to manage multiple contingencies simultaneously in widely 
separated areas of the world. Success in dissuading, deterring and 
defeating our enemies in the war on terrorism requires strategies, 
capabilities and command structures that allow for flexibility and 
quick action. We need a set of diverse tools for the job. As for the 
military tools, we need rapidly usable, long-range and lethal strike 
capabilities in response to good intelligence about unexpected events. 
In the war on terrorism, it is useful for the United States to have 
allies. NATO has contributed valuably to the war effort.
    The September 11, 2001 attack on the United States resolved a 
debate within NATO as to whether regions beyond the North Atlantic 
arena are ``out-of-area.'' NATO member states now realize that 
responding to threats emanating from beyond Europe are part of NATO's 
mission. The Alliance recently decided to support Germany and the 
Netherlands, for example, in their leadership in Afghanistan of the 
International Security Assistance Force--a mission that brings NATO 
well out of its traditional geographic domain.
    I consider ``international community'' a loose term because the 
world's nations do not, alas, adhere in common to key philosophical 
principles. But NATO is accurately referred to as the Atlantic 
Community. The European and North American allies do, in fact, share a 
commitment to democracy and individual liberty. Furthermore, our 
economies are thoroughly intertwined. In bad times, the United States 
has stood with Europe. As demonstrated in the aftermath of September 
11, Europe has stood with the United States. We have our intra-
community disagreements, as I'll discuss further in my testimony, but 
the degree of harmony in the policies and interests of the NATO allies 
is rare among multinational organizations.
    The North Atlantic Treaty serves as a foundation for transatlantic 
military cooperation. Among its members, NATO promotes common defense 
policies, common military doctrine and integrated force postures. 
NATO's success in military integration is found no where else in the 
world.
    Over the last decade, NATO military forces brought peace to Bosnia-
Herzegovina and Kosovo. Under the NATO flag, European forces have 
helped Macedonia overcome ethnic conflict. In Afghanistan, 50 years of 
NATO joint planning, joint training, joint staffing and joint 
operations enabled allies and partners to help oust the Taliban regime 
and give freedom to the Afghan people swiftly and efficiently.
    There is alliance-wide value in the forward presence in Europe of 
U.S. military forces. The bases that the United States uses in Europe 
have often facilitated the projection of American military forces to 
theaters of operation around the world. Our forward presence allows us 
to develop among American and European soldiers and units the 
interoperability and familiarity necessary for combined military 
missions.
    We are now working to enlarge the Alliance to make NATO more 
responsive to the unpredictable and lethal threats confronting the 
Atlantic community.
    NATO Enlargement: NATO accession protocols have just been signed in 
Brussels for Bulgaria, Estonia, Latvia, Lithuania, Romania, Slovakia, 
and Slovenia. Our support for their integration into NATO is matched by 
their enthusiasm to contribute to our common security. These seven 
countries have already been acting de facto as Allies through 
participation in NATO's Balkans missions, Operation Enduring Freedom, 
and the Kabul peacekeeping force. Six have publicly declared themselves 
Coalition members in Operation Iraqi Freedom. Several have deployed 
troops to the Iraq theater. When they join the Alliance, these seven 
will strengthen transatlantic ties. They will bring with them their 
fresh appreciation of the value of freedom.
    If NATO is to fulfill its security tasks, it must (as I have noted) 
be able to deploy forces with global reach that are agile, lethal and 
technologically superior to any challengers. For this purpose, NATO 
leaders at the Prague Summit last November launched a program to reform 
NATO's command and force structures.
    NATO Response Force: A key element of this reform program is the 
Allies' commitment to establish the NATO Response Force. If implemented 
to the standards proposed by the United States, the NATO Response Force 
will be able to deploy with advance notice measured in days, not 
months. Its elements will be able to execute the entire spectrum of 
combat operations. Our goal is for the force to be fully operational by 
October 2006. We expect the force to become a catalyst for NATO 
transformation efforts.
    Command Structure Reform: At Prague, Heads of State and Government 
also approved an outline for a streamlined NATO command structure. 
Operational commands will be reduced in number from 23 to 16. This will 
make more efficient use of financial and manpower resources. More 
importantly, NATO commanders will have headquarters that are more 
mobile, joint, and interoperable. The establishment of a new functional 
command, Allied Command Transformation in Norfolk, Virginia, will 
provide a new engine to promote military transformation across the 
entire Alliance.
    Now for a few words about problems facing the Alliance:
    Capability Shortfalls: NATO's first challenge is for Allies to 
remedy their military shortcomings. NATO will not be able to perform 
its military missions if it does not fix longstanding shortfalls in 
such areas as strategic lift, communications, nuclear, biological and 
chemical defense equipment, and precision-guided munitions. Allies 
promised to redress these shortcomings through the Prague Capabilities 
Commitment, but NATO suffers from a long history of unfulfilled force 
goals. Continued failure in this regard will jeopardize the NATO 
Response Force. Allied contributions to NATO Response Force rotations 
must provide the capabilities envisioned at Prague if the NRF is to 
evolve from a paper concept to a fighting force.
    21st Century Consensus: A second important challenge is NATO's 
consensus rule. Will NATO be able to achieve consensus in the future, 
given policy differences among the allies and the increase in the 
number of allies? The dangers to allies posed by the nexus of 
terrorism, state sponsors of terrorism and weapons of mass destruction 
may not emerge from Europe or even from Europe's periphery, but from 
distant parts of the globe. In the future, it is unlikely that NATO 
will face threats over which all 19 or 26 members would have to go to 
war all together. As demonstrated in Afghanistan and Iraq, unanimity or 
consensus for action within NATO will not necessarily be the norm.
    Some members of this committee, when we discussed this issue last 
year, suggested that it may be time for NATO to modify its decision-
making rules. Recent Iraq-related disagreements within the Alliance in 
which France and Germany put themselves at odds with virtually every 
other ally regarding the defense of Turkey have brought this question 
to the fore.
    I wish to make two points to launch our discussion here of this 
issue. First, the consensus rule has proven valuable in certain 
important ways. It has been a means to force nations to make decisions. 
It has tended to create pressure for unified positions, rather than 
encourage divisiveness and obstructionism.
    Second, the absence of consensus does not (and should not) stop 
NATO members from acting militarily outside of NATO as their own 
interests may require. When NATO members so act, they can benefit from 
the Alliance by cooperating with allies whose military capabilities are 
available or usable because of the interoperability, combined training, 
combined doctrine and the like attributable to Alliance activities.
    The Role of France: Now, as to the recent problem of France's 
regrettable conduct within NATO. French efforts to block steps to 
enhance Turkey's security against possible chemical, biological or 
other attacks by Saddam Hussein reflected a deliberate decision to 
block initiatives important to the Alliance. It raised questions not 
only about NATO's decision-making, but its ability to make good on its 
obligations to member states.
    Fortunately, the majority of current Allies value NATO for the 
links it provides between Europe and North America. NATO enlargement 
and EU enlargement promise to reinforce in those institutions the ranks 
of those seeking close partnership with the United States. On issues of 
transatlantic concern, divisions appear more frequently within Europe 
than across the Atlantic.
    U.S. Force Presence in Europe: Finally, Mr. Chairman, I would like 
to close with a comment on the future of the U.S. force presence in 
Europe.
    When the President asked Mr. Rumsfeld to serve as Secretary of 
Defense, he asked him to review our defense posture around the world. 
DOD's 2001 Quadrennial Defense Review called for reconfiguring the U.S. 
global military posture in light of changes in the international 
security environment.
    We have been examining our posture and presence across the globe. 
This work is ongoing and aims to ensure that our military forces are 
appropriately structured, equipped, and deployed. We are rethinking our 
so-called footprint to take account of our key strategic concepts--for 
example, the need for strategic and operational flexibility, the 
unpredictability of future challenges, and the low probability that our 
forces will be used in the immediate vicinity of where they are based. 
We are thinking long-term. Our decisions about where we want to base, 
exercise and stage our forces are not being driven by transient 
considerations of current events.
    Our approach is to establish a presence appropriate to each region 
and increase capabilities to act promptly and globally in response to 
crises. To do so, we aim to diversify access; develop more adaptable, 
expeditionary forces; promote greater Allied contributions; and 
strengthen command structures to support our national security 
strategy. Any changes will be designed to increase our flexibility and 
forward access. We recognize the sensitivity of any changes to U.S. 
force posture and will consult with Congress, Allies, NATO, and 
partners.
    In all events, we expect that NATO will play a key role in U.S. 
national security policy for the foreseeable future.
    Thank you.

    Chairman Warner. Thank you, Mr. Secretary. That is a very 
good statement. We will now proceed with a 6-minute round among 
those members present.
    A question of niche capability. I have been somewhat of a 
skeptic about the continuous enlargement of NATO through the 
years. This time I have tried to pay my respect to the 
President's decision and the decision of others and go forward, 
and it looks like it will be ratified eventually by the Senate.
    But part of the reason why I feel I want to support it this 
time was this doctrine of niche capability. That is explained 
to me that a nation, some of these smaller nations, cannot be 
expected to have the 360 degree--I think that is the word that 
was used as a description--military force, air, sea, land, so 
forth. Some of them do not require any sea component, but they 
could have certainly the air and land. Given their somewhat 
tenuous financial ability within their own economies to get the 
money to quickly start up that force that would be expected, 
they are relying on a niche capability. Namely, they have 
specialized training and have been recognized for that 
capability.
    Could someone expand on that? I think that to me is a very 
persuasive reason to support this package.
    Secretary Feith. Mr. Chairman, we see right now in 
Operation Iraqi Freedom the value that some of our allies bring 
by contributing what you could refer to as niche capabilities--
chemical and biological weapons decontamination capabilities, 
for example. In some cases there are allies that have lift 
capabilities that they can contribute, and in some cases 
intelligence. In particular, there are countries that have 
human intelligence capabilities that are a real contribution, a 
real augmentation of our own.
    There are a number of areas where countries that do not 
have the full range of capabilities in their armed forces can 
nevertheless be important contributors, including in 
peacekeeping, including in providing services for the stability 
operations phase of wars. We see--and we saw it in Afghanistan 
and we are seeing it now in Iraq--this could be an important 
part, an important role that NATO will play in the future, 
working together to be able to do operations in a way that 
really does distribute the burdens. It does not require the 
entire set of allies to go to war together, but the ability of 
the United States to integrate the contributions, these niche, 
so-called, contributions, into our own operational plans has 
everything to do with the fact that we are allies, we work 
together, we train together, we have common doctrine, we have 
interoperable equipment.
    So the alliance can play a valuable role and the expanded 
alliance can really increase the capabilities of the different 
allies to operate in coalitions, and I think this is going to 
be an important part of the future of NATO.
    Chairman Warner. You said we are trying to fix our 
shortfalls. Supposing one or more of these nations simply does 
not want to develop a heavily equipped land force and NATO says 
to them: All right, you go into the airlift business. Take your 
funds and just specifically get a very strong airlift.
    In other words, is targeting being done as the nations are 
brought in to tell them, do not worry about bringing several 
heavy motorized, mechanized regiments, just concentrate on 
airlift? Is that specifically done? I saw you, Ambassador 
Grossman, nodding your head.
    Ambassador Grossman. It is, Senator. I think, as you say, 
one of the great reasons to support this round of expansion, as 
it was the last time, is precisely because they bring these 
capabilities to the alliance. In my statement, in my written 
statement which you were nice enough to put into the record, 
there are a series of examples about how this works with all 
seven of the members. As you say, we have capabilities that 
come to us in the nuclear, biological, chemical area.
    Estonia, for example, very specialized naval forces which 
are rapidly deployable; Bulgaria, very important NBC 
capabilities. Romania, interestingly enough, when they deployed 
to Afghanistan, they airlifted themselves, which a lot of NATO 
members would not be able to do. So there are these 
capabilities and, as you say, I think it is a very important 
reason to support this expansion.
    Chairman Warner. Thank you very much.
    You talk about how we are rethinking the missions and so 
forth of NATO. You touched on the very important last round or 
the round before where we had the out-of-area decision, which 
was a major one. You gave the benefits of the consensus rule. 
Is any thinking under way now to possibly modify that rule, or 
is it just static for the moment?
    Secretary Feith. I think there is a lot of thinking going 
on in light of the recent difficulties that we have had over 
policy differences within the alliance.
    Chairman Warner. Let me just give you an example. People go 
to sleep at night thinking that their local police force is 
there to protect them during the night and when they wake up in 
the morning. I think a lot of people look upon NATO as that 
great protectorate that is there, and all of a sudden a problem 
occurs and then there is a debate down there and they are 
static, they are not moving, they are immobilized, and the 
problem worsens. There comes a point in time, well, how do we 
deal with the problem? Who is going to come to help us?
    Now, NATO could be putting a false sense of security into 
its immediate area and perhaps, it goes beyond its borders, and 
that false sense of security might work to the strong detriment 
in a situation that is developing more rapidly than the Turkish 
situation. So it seems to me you have to do some thinking about 
having NATO be able to reach a decision faster and get around a 
situation where one nation could absolutely block its reaction 
to a crisis.
    Secretary Feith. Mr. Chairman, what you are saying, I 
believe, is clearly correct. This does require careful thought. 
There are two interesting aspects of the NATO debate on 
protecting Turkey when Turkey invoked article 4. One aspect is 
the dispatch by The Netherlands of Patriot batteries to Turkey 
on a bilateral basis, which is an important model. It is an 
important tool that is available to NATO countries. There was a 
bilateral arrangement, facilitated undoubtedly by the fact that 
these countries are allies, but a bilateral arrangement was 
made so that NATO did not have the ability to completely 
block----
    Chairman Warner. My time is up. I accept that as an ad 
hoc----
    Secretary Feith. Then the second point, if I may, is that 
the decision that was blocked when it was discussed at the 
North Atlantic Council was then moved into the Defense Planning 
Committee (DPC)----
    Chairman Warner. I understand, which circumvented the North 
Atlantic Council.
    Secretary Feith.--which meets at 18, and by excluding the 
French we were able to achieve a consensus in the DPC to help 
the Turks.
    Chairman Warner. But the next time there may be a hot fire 
fight and people are actually losing their lives while this 
process is trying to unfold on an ad hoc basis.
    Senator Levin.
    Senator Levin. I have been concerned about that issue, as 
you both know, for a long time and never really gotten a 
satisfactory answer as to whether or not indeed, as you just 
put it, Secretary Feith, there is a lot of thinking going on. 
You said it needs careful thought. I do not see that it is 
getting any careful thought in NATO.
    The idea that now there will be 26 countries, each one of 
which could veto an action by NATO, is creating a greater 
likelihood that someday there will be a veto exercised that 
cannot be overcome by referring something to the planning 
committee from the council. Is NATO taking this issue up? I do 
not see it. I do not see this on any agenda at NATO.
    Ambassador Grossman.
    Ambassador Grossman. I would say the answer to your 
question is no, sir.
    Senator Levin. Should it not? Should it not be on an agenda 
there if indeed Secretary Feith is correct that this needs a 
lot of careful thought? He says a lot of thinking is going on. 
Is it going on at NATO? I do not see it.
    Ambassador Grossman. I do not think it is going on in any 
systematic way. I hope that people who are here in the audience 
and people in NATO who are listening to this hearing will take 
what you and Senator Warner and others have said seriously, and 
that this kind of conversation needs to go on.
    I also think that people who are listening to this hearing 
ought to recognize that this is one of the disadvantages of the 
kind of terrible activity that went on in February, it opens 
these kinds of questions.
    Senator Levin. I think it ought to go on in a systematic 
way, and I think we ought to put this on an agenda. I would ask 
that you let this committee know--and I think obviously the 
chairman is the only one who can direct you to do this.
    Chairman Warner. I so direct.
    Senator Levin. So with the chairman's permission, that you 
let this committee know whether we are going to put this issue 
at NATO for consideration.
    The same thing is true with the inability to remove or 
suspend a member of NATO who no longer complies with the 
fundamental tenets of NATO, commitments to democracy, open 
markets, and so forth. Some day there is a likelihood that some 
country is going to become anti-democratic. Just statistically, 
history has indicated that can happen. What will happen? That 
country could have a veto over any action of NATO and there is 
no way to remove a country or suspend a country. That item 
ought to be discussed, too, not in the context of these seven 
countries--that is not the issue--in the context of there being 
now 26 countries, that the greater statistical likelihood--the 
more countries are in NATO, the greater the likelihood that 
that can happen.
    Also give us an answer as to whether that issue will be 
brought up to NATO for discussion? Let this committee know as 
well?
    Ambassador Grossman. I will do so.
    Senator Levin. Thank you.
    The European Council, meeting at the level of heads of 
state or government, adopted a number of conclusions at the end 
of its meeting on March 21. As regards Iraq, this is what their 
conclusion was: ``We believe the U.N. must continue to play a 
central role during and after the current crisis. The U.N. 
system has the unique capacity and practical experience in 
coordinating assistance in post-conflict states. The Security 
Council should give the United Nations a strong mandate for 
this mission.''
    But yesterday's Washington Post reported that the 
Pentagon's civilian--here I am quoting, ``The Pentagon's 
civilian leadership has prepared a post-war plan for a short-
term military occupation followed by an indefinite U.S.-run 
civil administration that would determine the form and pace of 
an eventual resumption of Iraqi control.''
    Then that report went on to say that, ``The State 
Department counters that turning Iraq over at an early stage to 
a U.N. administration which would supervise a gradual turnover 
to Iraqis as it did in Afghanistan would be more palatable to 
Iraqis themselves and that such a plan also would garner far 
more international financial and political support and begin 
the process of rebuilding multilateral cooperation that was 
shattered during the bitter U.N. debate over the war.''
    Now, to what extent, I would like to know from each of you, 
is there accuracy here? It would appear that the State 
Department agrees more with the European Council and that the 
Pentagon disagrees. You are laughing, Ambassador Grossman. Why 
are you laughing?
    Ambassador Grossman. I am laughing because I have never 
been accused of agreeing with the European Council before and I 
do not think that is a position I want to be in.
    Senator Levin. This says the State Department. It is not 
personal. It is not personal to you.
    Is there a difference between the State Department and the 
Defense Department on that issue?
    Ambassador Grossman. I do not think so, sir. Let me make an 
answer and we will see if there is a difference. First, we take 
our guidance from the statement that was issued in the Azores 
by President Bush and President Asnar and Prime Minister Blair 
and the President of Portugal, which is to say that we do 
believe that the United Nations has a role to play in the 
future of Iraq. I think that is absolutely clear. It says we 
plan to work in close partnership with the international 
institutions, including the U.N., our allies, and partners. We 
plan to seek the adoption on an urgent basis of a U.N. Security 
Council resolution that would affirm Iraq's territorial 
integrity, ensure rapid delivery of humanitarian relief, and 
endorse an appropriate post-conflict administration for Iraq. 
That is what we take as our guidance.
    I think, as Secretary Powell has said on a number of 
occasions, that there is a role for the United Nations to play. 
But I think both Doug and I would agree that, now that our 
forces are engaged in combat, we recognize our responsibilities 
that we have taken on here for humanitarian issues, for 
political issues, and for reconstruction issues. We would like 
them to be a part of that. But I take my guidance from the 
President.
    Senator Levin. Secretary Feith, basically do you agree with 
that, because the time is short.
    Secretary Feith. I do agree with that. The kinds of things 
that the U.N. I think could very helpfully contribute in a 
post-war period in Iraq would be assistance regarding refugees, 
humanitarian aid, the World Food Program. There may be a role 
for the IAEA in helping with the dismantlement of the weapons 
of mass destruction. I would imagine that the U.N. will be 
appointing a special coordinator of some kind.
    I think there are a number of roles that the U.N. could 
play that would be most welcome in post-conflict Iraq.
    Senator Levin. My time is up. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much, Senator.
    Senator Allard.
    Senator Allard. Thank you, Mr. Chairman.
    I have a personal concern that France, which has a 
propensity for restricting trade, will try and use its trade to 
influence decisionmaking among its allies that it trades with 
as it affects votes in the United Nations or perhaps even how 
it might impact NATO policy. We saw some of that surface here, 
I think, when France brought up the issue of support from the 
newer applicants into NATO, saying that if they supported the 
United States with Iraq that they would oppose their membership 
in NATO.
    So the question that I have is have you seen any indication 
that France has sought to punish those countries that support 
our position on Iraq, either through membership in NATO or 
through some kind of trade policy?
    Ambassador Grossman. Senator Allard, I do not believe that 
I have seen anything specific on the economic side, or the 
trade side. But if you would allow me to give you an answer for 
the record on that. I do not think so, but I would like to 
check.
    [The information referred to follows:]

    After the ``V-10 statement'' by the NATO aspirants expressing 
support for the U.S. position on Iraq, President Chirac stated the V-10 
countries had ``missed a good opportunity to be quiet'' and chastised 
them for not coordinating their position with the other EU members 
first. President Chirac was widely criticized for these remarks in 
America and in Europe.
    President Chirac has spoken out about his belief that EU aspirants 
need to abide by the EU's common positions on issues, but we have yet 
to see evidence of specific actions to punish the invitees that 
supported U.S. policy on Iraq.

    On the political side, yes, sir, absolutely. I think that 
the statements that French leaders have made, first against 
some of those countries that signed an article 98 agreement 
with us on the International Criminal Court, then signed the 
Statement of Eight supporting our position on Iraq, the ten who 
supported our position on Iraq--we have been very clear that 
that is not the kind of pressure that ought to be put on 
sovereign countries who have a right to decide what their 
foreign policy is. We will continue as strongly as possible to 
support them, certainly in NATO where we have a voice and a 
vote, but we also believe that they are very important 
potential members of the European Union as well.
    Senator Allard. Some believe France is pushing other 
European nations to unify under the banner of the European 
Union, frankly, just to oppose U.S. power. It appears that 
France desires to act as a counterweight to the United States. 
Do you believe that France is trying to check U.S. power and, 
if so, what are the implications for the NATO alliance?
    Ambassador Grossman. Obviously you would have to ask a 
representative of France why they do what they do. I think that 
if you take the specific case that Doug and I both referred to 
in February, of Turkey calling for an Article 4 agreement or 
Article 4 consultations with the alliance, the disagreements 
there I think were damaging to the alliance, as I testified in 
my statement.
    Senator Allard. But let me repeat my question here for you. 
Do you believe France is trying to check U.S. power?
    Ambassador Grossman. Again, I think you have to ask them 
why they do what they do.
    Senator Allard. But what is the State Department's belief 
on this? How do we feel towards France's actions in the State 
Department?
    Ambassador Grossman. We feel that the current disagreement 
between France and the United States, and I would say between 
France, Germany, and the United States, on the question of Iraq 
is very damaging and is out in the open for everybody to see.
    But I would also say, Senator, that, while we have a 
fundamental disagreement with them over Iraq, we fundamentally 
agree with them on many other things. We are working with them 
in Afghanistan to train the Afghanistan national army, as 
Senator Levin talked about before. We are in the same camp 
regarding the expansion of NATO. We are working together in 
Operation Enduring Freedom.
    So if you say to me, give me one answer, one headline about 
this relationship with France, with all due respect, sir, it is 
more complicated than that. Secretary Powell, I thought, got 
off quite a good line the other day. He said, France and the 
United States have essentially been in marriage counseling for 
225 years. I do not mean to be jovial about that, but we are 
still married and we are still here and they are still part of 
the alliance and, as the President said at his news conference 
the other day, they are still a friend of the United States.
    So do we have a fundamental disagreement about Iraq? Yes, 
sir. But do we have this alliance with France? Yes, we do.
    Senator Allard. Let me come at it in another direction. I 
think it is obvious that France is trying to be competitive 
with the United States on trade. I do not think there is any 
secret there that they are trying to be a competitor as far as 
the United States is concerned. So why would we not expect them 
to be applying that in their negotiations on a political basis?
    Ambassador Grossman. I think, Senator Allard, when I give 
you a full answer to this question we will find that over the 
years--this is before Iraq--the European Union has tried to 
change the terms of trade with the people it is inviting into 
the European Union to the disadvantage of the United States.
    Senator Allard. So why would we not expect them to bring 
that same effort into public policy as we talk about public 
policy issues within NATO or within the United Nations?
    Ambassador Grossman. Sir, I think they absolutely have 
brought them. This is why I say what President Chirac said 
about the 10 countries that signed the V-10 statement, what 
President Chirac said about Romania, these are things that we 
regret and it seems to me is exactly the kind of political 
pressure that should not be brought by one country on another.
    Senator Allard. We are talking about a power struggle then, 
are we not, between the United States and France?
    Ambassador Grossman. Again, you would have to ask them what 
their vision is. But I think the vision of some people in 
Europe, which I think is a wrong vision, is that the European 
Union is somehow some great competitor with the United States. 
I see this in the opposite way. I think that if the European 
Union and the United States would work together on some of 
these big challenges around the world, not just political but 
economic as well, that we would accomplish a lot.
    I think it is too bad that there are people in the European 
Union who believe that the only way to go forward is in a 
competitive way.
    Senator Allard. Thank you, Mr. Chairman. My time has 
expired.
    Chairman Warner. Thank you, Senator.
    Senator Dayton.
    Senator Dayton. Thank you, Mr. Chairman.
    I commend you for those remarks, Mr. Secretary, and I hope 
those will be the spirit of the administration moving forward. 
Winston Churchill once said, to conclude the quote, ``In 
victory magnanimity, in peace goodwill.'' It seems to me that 
if we take those in anticipation of victory and move ahead, we 
set the lead and we set the tone of these, and I hope we can--
as you said, if we agreed on everything all the time we would 
not need treaties or alliances. I commend you for that.
    In terms of admitting the new countries, is there a way to 
use those countries and their relationships with other 
neighbors, such as Ukraine, to intensify the effort to secure 
nuclear weapons from the former Soviet Union or nuclear weapons 
materials? Is that something, does this provide an opportunity 
to do so?
    Ambassador Grossman. I believe it does, Senator. The 
Ukraine I think has--I believe I am right--given up all of its 
nuclear weapons, and very commendably so. But the question of 
nuclear material is an extremely important one.
    May I say, Senator, just to your first point, we do set the 
tone here and so I do appreciate what you say, that NATO is not 
the Politburo and the European Union is not the Politburo and 
we are dealing here with democracies, and that is a very 
important part of our strength. As I said to Senator Allard, we 
disagree on some things, but we so profoundly agree on so many 
things that we will go forward in that spirit, I am quite sure.
    Senator Dayton. I am not well-versed in the particulars of 
these countries and Ukraine, as you pointed out, in terms of 
nuclear weapons and materials. But to the extent that they have 
those, can this be one of the conditions or expectations for 
membership, that they are going to really batten down the 
hatch, ideally relinquish those materials?
    Ambassador Grossman. Yes, sir. I am sorry, I apologize. Of 
the seven that are coming in, yes, absolutely, they should not 
be in this business at all. Other people, others have made the 
good suggestion that this adds to our possibility also of 
taking a look at civilian nuclear reactors, for example, in 
these countries and bringing them up to certain safety 
standards.
    Senator Dayton. Mr. Secretary?
    Secretary Feith. Senator, the NATO Partnership for Peace 
program in which these various countries participate, and there 
are a number of other countries that are still in that program, 
has addressed seriously the question that you are raising of 
controlling dangerous materials, nuclear and other weapons of 
mass destruction-related materials and technologies from the 
former Soviet Union. There has been work together on 
controlling exports, border control, and the like as part of 
the program for the Partnership for Peace, and I think that it 
has been useful.
    We have invested in it and we have been quite pleased with 
the results.
    Senator Dayton. Good. Thank you.
    Russia once viewed the admission of these seven countries 
as a mortal threat to its own security. How has that been 
resolved? Has it been resolved?
    Ambassador Grossman. I think it has been resolved. When I 
testified here 11 months ago I said, who could believe that we 
would be sitting here at that time looking at the possible 
inclusion of these seven members, and particularly, Senator, 
the three Baltic States, and essentially have the Russians--I 
do not say they have to love this, but not being opposed to it.
    I think there are three reasons for that. First is I think 
the Founding Act, which was the agreement that we made at the 
first expansion in these past few years, worked tolerably well. 
It was not perfect, but it worked tolerably well.
    Second, I believe September 11 changed people's 
calculation. You will remember President Putin went to Brussels 
in October 2001 and said, ``who NATO brings into NATO is NATO's 
business.'' That is a big breakthrough and I believe that he 
recognized the change in strategy.
    Third, as I reported in my testimony, I believe that this 
new NATO-Russia council is also beginning to show some benefit. 
As I promised here a year ago, it is not a back door to NATO 
for Russia and it is not a way for Russia to veto what NATO 
wants to do. But if we can work on air space management and 
civil emergency planning, getting ready for emergencies, those 
are all good things, sir.
    So I believe that the whole change in strategy here, and 
the way people are thinking about their strategy, has been much 
to our benefit.
    Senator Dayton. Thank you.
    In terms of the force presence in some of these 20th 
century outposts around the world, given the call-up on the 
Reserves and the National Guard, at least in Minnesota, we have 
had any number of very patriotic men and women who are now in 
their second tour of duty in less than a year. At the same 
time, some of the active forces are not--``dormant'' was the 
word I was going to use. That is probably not the right 
characterization, but they do not seem to be as actively 
engaged in support of the current war effort as the Reserves 
and National Guard who have been called up.
    Are we really going to bite the bullet on this and not in a 
way that is perceived as retaliation or reaction to some of 
these disagreements, but really in a way that from a cost-
effectiveness standpoint that we are trying to take back what 
we do not need to be present? Given these kind of deployments, 
as you said all over the world, from anywhere in the world, it 
just does not seem to make sense so much to have these kind of 
numbers of troops and the costs of them distributed around the 
world.
    Secretary Feith. As I mentioned in my opening remarks, 
Senator, we are reviewing our force posture globally and we are 
looking to ensure that we have the kind of forward presence 
that contributes to our capability to react quickly to events. 
We need flexibility. We have taken forces from different parts 
of the world and moved them around, and that is an important 
part of the flexibility that we need.
    I think the kinds of concerns that you have raised are part 
of our thinking. We want to make sure that we have the right 
forces deployed in the right places with the right kinds of 
flexibility so that we can use what we need where we need it. 
There is a major difference between our thinking now and our 
thinking during the Cold War, and that is, in the Cold War, the 
key concept behind our deployments in Europe was that the 
forces were going to be used in Europe. We had a focus on where 
the threat was coming from and it was the Soviet Union and the 
Warsaw Pact. We had an idea of what the battlefield was, and we 
had our forces there in the battlefield ready to go.
    What we have learned since the end of the Cold War is that 
we have no idea where the next battlefield is going to be. 
Secretary Rumsfeld stresses all the time that when Dick Cheney 
was being questioned by the Senate in his confirmation hearings 
nobody asked any questions back in 1989 about Iraq, and when 
Secretary Rumsfeld was being questioned this time for his 
confirmation hearings nobody asked any questions about 
Afghanistan. This is not a reflection on the Senate. He did not 
think of it either. Nobody thought that we were going to be 
fighting in the next place where we wound up fighting.
    What that means to us is we need to have our forces 
deployed appropriately around the world, but not with the 
notion that they are going to be fighting where they happen to 
be based. That is a very important element of our analysis in 
thinking through our global force posture.
    Senator Dayton. Thank you.
    Thank you, Mr. Chairman. My time has expired.
    Chairman Warner. Thank you very much.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Secretary Feith, I want to follow up on the discussion that 
you began with Senator Dayton about the deployment of our 
forces. I believe that it is time for us to take a hard look at 
our base structure in Europe. For example, we have more than 
70,000 military personnel stationed in Germany, and that 
obviously makes sense in the context of the Cold War, but, as 
you have just pointed out, today's strategic environment is 
very different.
    As the boundaries of the alliance continue to move 
eastward, might it be advisable to consider shifting some of 
our base structure and the deployment of some of our troops to 
the territory of some of the newer members of NATO, and is that 
under consideration at the Department of Defense?
    Secretary Feith. Senator, the short answer is yes, in that 
we are trying to think in a completely unconstrained way about 
what our military footprint should look like in the coming 
decades. The ideas that we have been developing on this subject 
are that there is value in forward deployment, and we have a 
thought that there could be a number of places in the world, 
hubs, as we are referring to them, where we could have a 
substantial presence, a large base.
    But there are a number of other places around the world 
where we might want to create forward operating bases or what 
we refer to as forward operating locations, where our footprint 
would be a lot lighter. But, by having certain relationships in 
place, certain rights established in advance, a certain amount 
of infrastructure, and maybe some personnel, we would have the 
capability to deploy rapidly into certain areas.
    We are not looking at this issue from the point of view of 
creating so-called permanent bases. We always think that the 
word ``permanent'' should always be in quotes because various 
places where we have had permanent bases we no longer have 
bases and so nothing is quite permanent. But even large-scale 
bases with a large, sustained presence of U.S. personnel, there 
may be a few places where you want that, but in many other 
places around the world you do not want that. What you want is, 
as I said, maybe a small number of U.S. forces and some 
infrastructure to allow us to bring forces in, arrangements so 
that we rotate forces through in regular exercises.
    We are giving a lot of thought to this issue of how to get 
postured correctly so that we have the right kind of forward 
presence, but we are not tying ourselves down, as Senator 
Dayton was referring to. That is an important consideration, 
and also the idea of taking advantage of the expansion of the 
alliance to develop the kinds of relationship and presence with 
the new allies. That is an important part of our thinking.
    Senator Collins. If we bring the total number, Ambassador 
Grossman, of nations up to 26 countries, does not that further 
complicate the command and control and operational 
difficulties, make it more difficult also to achieve consensus 
in NATO? Perhaps Secretary Feith should also comment on this 
question.
    Ambassador Grossman. I do not think so, Senator Collins. I 
mean, are there more people, is it more complicated? Of course, 
it would be evident that it is more complicated because there 
are more people. But I believe that if you bring in seven more 
members on top of the three that you brought in a couple of 
years ago with the Senate's advice and consent, who are 
committed to this alliance and, as Doug said, to the community 
of values that we have, and that they have these niche 
capabilities that Senator Warner referred to, and that, for 
goodness sakes, of all of them they are already prepared to 
spend seriously on defense, I think, whatever challenges there 
are, we can work our way through them.
    I want people around that table who are prepared to act and 
who are prepared to do something. If you look at the history of 
the last enlargement, where we brought in Poland, Hungary, and 
the Czech Republic, what happened to them 2 weeks after they 
signed up? They were in battle in Kosovo. So, as we have said 
in our testimony, these seven allies already act as allies.
    So I think this is actually a plus for the alliance because 
it brings in people who want to be there and it brings in 
people who want to act.
    Senator Collins. Secretary Feith, let me ask you something 
else instead of asking you to comment on that question. That 
is, you said in your testimony that the most serious or one of 
the most serious problems facing NATO is the inequitable 
sharing of the burdens of NATO, with the United States offering 
by far the largest commitment of resources, whether you are 
talking financial, equipment, or troops.
    We have heard for many years the debate over the need for 
the European nations to step up their investment in their 
military and their contributions to NATO, and you have cited 
the most recent commitments. I do not mean to sound skeptical 
or cynical, but what makes you think this time it is going to 
be any different?
    Secretary Feith. I think your skepticism is well-grounded. 
There is a lot of history, which I referred to in my opening 
remarks, of our being disappointed with unfulfilled promises 
regarding the development of capabilities.
    I think that the point that the chairman highlighted is in 
part an answer to why we think that there may be some way of 
mitigating this problem. If we can get allies that are not 
trying to pursue the full range of military capabilities 
focused on those areas where they can make a real contribution 
and become important partners for future coalitions, we can 
make sure that they have, if not the full range of 
capabilities, at least a set of capabilities that allows them 
to participate proudly and enthusiastically in the common 
effort.
    We are looking to that as a way ahead to try to address 
this issue. Once upon a time when we talked about the 
capabilities gap, I think a lot of people had in mind this idea 
that people were going to try to develop a full range of 
capabilities. It is clear that nobody was going to have the 
full range of capabilities that could compare to that of the 
United States and there was always going to be an enormous 
capabilities gap if you looked at it from the point of view of 
the total capability of one of the other allies' forces versus 
those of the United States.
    But if you think about it from the point of view of special 
operations forces with certain capabilities or airlift or 
intelligence capabilities in certain areas, there is no reason 
that a proper investment by a number of these allies could not 
get them up to top level, comparable level with us, in 
important areas, and also high end areas. I want to make the 
point that some people have suggested that this idea of niche 
capabilities means that the United States does the important or 
more glamorous work of military operations and then we ask the 
allies to come in and do the peacekeeping or the less important 
work, as some people have described it.
    I want to make it clear, that is not our concept 
whatsoever. We are delighted if our allies have high end 
capabilities, have combat capabilities, have the ability to 
participate with us in whatever area they want to concentrate 
their effort in.
    Senator Collins. Thank you.
    Chairman Warner. Thank you.
    Senator Bill Nelson.
    Senator Bill Nelson. In light of that, will we consider 
moving some of our U.S. bases from Western to Eastern Europe?
    Secretary Feith. We are thinking through the question of 
where our bases should be in Europe, in Asia, in the Middle 
East, around the world. So, at this point I would not rule 
anything in or out. This is a matter that is ongoing right now. 
Every short while we are getting together with Secretary 
Rumsfeld and reviewing concepts for revisions in our global 
posture. So that it is certainly an idea that is on the table.
    Senator Bill Nelson. Let me ask you something about Turkey. 
There is good news and there is bad news. As of this morning, 
the good news is that Turkey has not moved into northern Iraq, 
so that we do not have that compounding problem with the Kurds. 
But the bad news is that they did not let us come over land 
through Turkey so that we could get a division into northern 
Iraq and therefore as we move on Baghdad we are limited in our 
ability coming from the north, which means that the Republican 
Guards in their movement do not have to worry so much about the 
north and can concentrate on the south.
    That is not a help to the United States, what Turkey has 
done. I would like your comments.
    Secretary Feith. Senator, you are correct that Turkey's 
failure to cooperate with us on the introduction of the Fourth 
Infantry Division into Iraq was a bad thing and it would have 
been a lot better had they cooperated with us. They have, 
however, given us an important type of cooperation in granting 
us overflight rights and we are making substantial use of those 
overflight rights, and that is a type of cooperation that we 
appreciate.
    Senator Bill Nelson. Overflight rights, I might say, well 
after the war started.
    Secretary Feith. But we are using them now and they are 
valuable.
    The problems that we had with Turkey--and I will let Marc 
Grossman comment; he used to be the U.S. Ambassador to Turkey 
and he is highly knowledgeable on the subject. I would just say 
briefly, the problems that we had with Turkey were surprising 
and very disappointing. I would say especially so to people who 
have long believed that Turkey is an extremely important, and I 
continue to believe, ally of ours that has stood with us 
loyally, steadfastly, for decades.
    Senator Bill Nelson. For half a century.
    Secretary Feith. In many circumstances, and it was very 
surprising and deeply disappointing that we had these problems 
in this case.
    Senator Bill Nelson. Very much so.
    Ambassador Grossman.
    Ambassador Grossman. I would just add one or two sentences, 
Senator, if I could. One is, I think the points that you just 
made about the continuing importance of Turkey to the United 
States are something we ought to hold in our minds even while 
we are disappointed with what happened. Second, just to be 
clear--and I do not make this in any way an excuse--but I think 
it is important to recognize that the Government did go to the 
Parliament with our request on the 1st of March and was 
defeated in Parliament. So although perhaps they might have 
done a better job of vote counting and getting ready for the 
activity, what we asked them to do, which was go to your 
Parliament and seek approval for these things, that they did 
do.
    But I do not disagree with anything that Doug has said.
    Senator Bill Nelson. Among Turkish officials--I found 
myself having a debate one night on national TV with the 
Turkish ambassador to the United Nations, and his position was 
that we had been heavy-handed with them, we had been pushy, 
pushing our weight around.
    How did it get to this with an ally of such many years 
longstanding?
    Ambassador Grossman. Senator, first, I think we have to 
take into account public opinion in Turkey. I think we have to 
be honest about this. Every public opinion poll taken in Turkey 
for the last 6 or 7 months has shown that over 90 percent of 
people in Turkey oppose U.S. activity in Iraq, and Turkey is a 
democracy.
    Senator Bill Nelson. That anti-U.S. feeling went up the 
more they felt like we were pushing our weight around.
    Ambassador Grossman. I can only defend what we did, and 
what we did was respond to the very clear request of military 
commanders, exactly as you laid it out, that a northern option 
with Turkey would be better for the United States strategy if 
at that time we had to go to war with Iraq.
    I think both Doug and I were in exactly the same position, 
and that is, when the Secretary of Defense and the Chairman of 
the Joint Chiefs of Staff and the commander on the ground says, 
``I need this,'' our job was to go out and try to get it.
    Senator Bill Nelson. You are a specialist on Turkey. You 
have been there as Ambassador. Was there a significant change 
as a result of the Turkish election?
    Ambassador Grossman. Yes, sir, I think there were two 
important changes. First, is that you had a government--and I 
mean no disrespect to them--that got elected some time in 
November. I apologize, I cannot remember the date--and 2 or 3 
days later Paul Wolfowitz and I traveled to Turkey and we said, 
``welcome to your new positions and, oh, by the way, here are 
all the things that we would like to do together in terms of 
getting ready for a possible war on Iraq.'' You can imagine the 
strain that that put on their system.
    Second--again, they would have to speak for themselves. The 
other thing is that they had a big democratic Parliament to 
manage. When they went on the 1st of March, I believe, and I 
will tell you I believe, they went to win. They did not go 
there to lose. The fact that they lost maybe said something 
about the strength of the opposition. It said maybe something 
about their newness in government.
    Third, because of this very large number of people opposed 
to this war on Iraq, they had constituents, and they had to 
deal with all of those things. So I say, I am not a spokesman 
for Turkey. I just simply try to answer your question and give 
you my perspective.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Warner. Thank you.
    Senator McCain.
    Senator McCain. Just to follow up in Turkey, when you say 
you were surprised and there was a failure of our diplomacy, I 
do not think how you could paint it any other way. Our 
expectations were far different and we did not get what we 
expected, and we are paying a heavy price for it now in the 
conflict.
    Ambassador Grossman, given the trouble we had with the 
French in the North Atlantic Council on the question of 
Turkey's defense and our ultimate ability to win the vote to 
reinforce their defenses only by having the vote in the Defense 
Policy Committee, is the administration considering proposals 
to alter the NATO decisionmaking process in order to prevent 
future French vetoes of routine alliance decisions? I want to 
emphasize, this was a routine alliance decision.
    Ambassador Grossman. Senator, we want first of all to use 
the alliance structure that exists.
    Senator McCain. I would like to know if you are you 
considering proposals to alter the NATO decisionmaking process?
    Ambassador Grossman. I committed to Senator Levin that that 
would be something we would enter into on the agenda of NATO, 
yes, sir.
    Senator McCain. On the subject of France, a country can 
either be an ally or a counterweight. It cannot be both. Given 
France's expressed strategic goal--and that is why I am a 
little bit confused by your response that Secretary Powell says 
we have been in counseling for 200 years. We have never seen 
anything like this before, that the French have displayed 
public statements of being a counterweight, public statements 
made by public officials in the French Government, not private 
conversations but public. I would be glad to supply you with 
the media reports in case you missed them, Ambassador Grossman.
    Have we changed our view that a European Rapid Reaction 
Force separate from NATO, as the French have been pushing for 
so hard, does not threaten the role of the alliance and the 
transatlantic relationship?
    Ambassador Grossman. Senator, two points. One is that I 
certainly think what has gone on in the past few weeks has been 
very difficult and terrible. But with all due respect, when you 
had a France in 1966 that actually kicked the Alliance out of 
Paris, which was a pretty substantial public disagreement 
across the Atlantic----
    Senator McCain. I would be glad to debate history with you, 
but when they made a unilateral decision to kick NATO out of 
Paris that was a decision that Mr. deGaulle made. It had no 
real impact on the infrastructure of NATO except that we had to 
move the headquarters.
    But if anybody believes that our relations with France are 
not at the all-time worst, then they have not been making the 
same observations as most of the American public, including 
this citizen.
    Ambassador Grossman. Fair enough.
    On the second question, Senator, I will speak for myself 
here. No, sir, I have not changed my mind about the utility of 
having Europeans do more in their own defense. I have not 
changed my mind, sir, about the desirability of having a 
European force which is connected through various mechanisms 
and rules of the road to NATO. I think it would be an advantage 
to the United States if the Europeans would do more than talk 
about their own defense and actually deploy.
    We are going to find out here, Senator, over the next few 
weeks because on the 31st of March the European Union is going 
to deploy to Macedonia, take over this mission for NATO. Again, 
you may disagree and, if so, I am glad to talk to you about it, 
but I think that is a plus, sir, not a minus.
    Senator McCain. Can you tell me a military action scenario 
that you could envision a European Rapid Reaction Force being 
involved in as a separate entity without the involvement of the 
United States of America?
    Ambassador Grossman. Without the involvement of the United 
States of America through NATO, no, sir.
    Senator McCain. Then what does the European Rapid Reaction 
Force do militarily?
    Ambassador Grossman. I think it does exactly what it will 
do here in a couple of days----
    Senator McCain. I am asking, is there any military role 
that you could see, a military scenario, a scenario where they 
would be involved militarily? I am not talking of peacekeeping. 
I am talking about in a conflict.
    Ambassador Grossman. The answer to that question is no, 
sir, not yet, because the Europeans themselves have set for 
themselves what they call the Petersburg Tasks. At the moment I 
cannot remember all of them, but they have to do with 
peacekeeping and humanitarian follow-on. So they do not set 
themselves the goal in the headline of 60,000 troops deployable 
in 60 days, sustainable for a year, to do combat with those 
forces, no, sir.
    Senator McCain. So they do not envision it as a combat 
role? It would be a peacekeeping role?
    Ambassador Grossman. Peacekeeping, humanitarian. As I say, 
there are four or five Petersburg Tasks, which I would be glad 
to provide for the committee. I cannot dredge them up at the 
moment.
    [The information referred to follows:]

    As envisioned by the EU, the European Rapid Reaction Force should 
eventually have the capability to fulfill the full range of 
``Petersburg Tasks,'' including crisis management operations that may 
involve combat forces. The Petersburg Tasks, as agreed by EU members in 
their 1997 Amsterdam Treaty, include: humanitarian and rescue; 
peacekeeping; and crisis management, including peacemaking. The EU has 
committed itself to working in partnership with NATO through the NATO-
EU ``Berlin Plus'' framework. Under ``Berlin Plus,'' the EU would only 
consider crisis management military operations where it is clear that 
NATO as a whole will not be engaged.

    Senator McCain. It is remarkable.
    I have no further questions, Mr. Chairman. Thank you.
    Chairman Warner. Thank you, Senator.
    I would like to follow on that line of questioning on my 
own time with just a quick one to fill in at this point. France 
is on the North Atlantic Council, but not in the integrated 
military structure. Does this one foot in NATO, one foot out, 
give them special privileges or ability, flexibility, or 
whatever word you might wish, to do the things that they have 
done?
    Ambassador Grossman. Yes.
    Chairman Warner. Well then, somebody ought to address that.
    Ambassador Grossman. I was not doing a very good job with 
Senator McCain. I think one of the good things that happened, 
maybe among the small number of good things that happened in 
February, was I think it was very important for the alliance to 
move that decision from the NAC to the DPC. With respect, 
Senator, that was using the existing structure to deal with 
this problem.
    So if you ask me, I think, as Senator McCain said, if I am 
faced with more routine business that is not getting done, I 
would use the DPC more, not less. But as I say, that is my 
opinion.
    Chairman Warner. That was a lot of damage done in the time 
it elapsed.
    Ambassador Grossman. Yes, sir.
    Chairman Warner. We now go to our colleague Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman. Mr. Chairman, I am 
sorry I was late. I was tied up in another meeting.
    I know I have heard some discussion today about the 
changing mission of NATO, niche capabilities, the 
decisionmaking process within NATO. But let me ask the two 
witnesses, if I can, just to summarize: What is NATO's mission 
today? What is the actual mission of NATO?
    Secretary Feith. It is to defend the interests of the 
members of the alliance.
    Senator Pryor. Has it changed any since we have added the 
new members and since the Cold War is over?
    Secretary Feith. Senator, I think that there has been for a 
long time a question about whether it is fair to describe NATO 
as simply a military defense organization or more broadly a 
security organization that takes into account more than just 
military defense, takes into account all the various concepts 
that go under the term ``security,'' including political 
stability and the like.
    I think it is fairly clear that NATO is a security 
organization. It has both the effect and the purpose of 
providing security, not simply in the sense that it helps 
protect the members from outside threats, but it also helps 
keep peace among the members. NATO I think can be credited not 
only with defending Europe from the Soviet Union and the Warsaw 
Pact throughout the Cold War, but also helping to secure and 
foster the well-being of the members themselves in their own 
internal relations.
    Senator Pryor. I agree.
    Secretary Feith. I think that it continues to have that 
purpose.
    Senator Pryor. It gives them a commonality of interests, 
because if you look at the member nations they have not always 
been friends, and NATO has been some glue at least that helps 
hold them together.
    Now let me ask this. In the post-September 11 era in which 
we now live, it seems to me that a natural role for NATO to 
play, especially given the goals of al Qaeda to be at war with 
the West and to fight against the West, is anti-terrorism, not 
just in Europe but really around the globe.
    It seems to me that one thing that NATO could do--and I 
would like to hear your comments on this--is be very active in 
anti-terrorism activities, again not just in Europe but around 
the globe because, as we all know with September 11 here in 
this country, but there have been many instances of terrorism 
in Europe and around the region for years and years. Most 
Americans think that terrorism started on September 11, or at 
least that is the first real face-to-face contact we had with 
it, but we all know it has been a problem for a long time.
    What is NATO's role with regard to the global war on 
terrorism and what should it be?
    Secretary Feith. The role that it has played so far has had 
a number of parts. In the immediate aftermath of the September 
11 attack, NATO invoked Article 5 of the North Atlantic Treaty 
for the first time ever. It dispatched AWACS airplanes to the 
United States to help in the defense of the United States when 
we had our assets committed elsewhere.
    Various NATO countries have helped us in the war on 
terrorism in Afghanistan. Many NATO countries are helping us in 
Iraq. As I noted in my opening statement, even when that kind 
of help is not institutional, an institutional role for NATO as 
such, the fact that there is an alliance and the fact that we 
operate together and develop the capability to work together in 
military operations and train together and develop common 
doctrine and have the consultative mechanisms, all of that 
facilitates our working as coalition partners with our other 
allies even when NATO as an institution is not itself playing a 
role.
    So I think that NATO has had an important place in our 
thinking about the war on terrorism. I think that it could have 
a greater role if the capabilities that it has pledged to 
develop are in fact achieved, and we are working on that and we 
are pushing for that. But I think that the attack on September 
11, as I noted before, resolved once and for all the issue of 
whether NATO is exclusively focused on Europe or whether it has 
a defense mission out of area. It is clear that, given the 
terrorist threat, which is a threat to all open societies, 
including the Europeans, they understand that if they are going 
to be dealing in a relevant fashion with the main threats that 
face us they are going to have to be working with the United 
States globally.
    Senator Pryor. Thank you, Mr. Chairman.
    Chairman Warner. Thank you very much.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you very much, Mr. Chairman.
    Secretary Powell did refer to France and the United States 
as going through lengthy marriage counseling. I do not know if 
we are on our way to divorce, but legal separation may be just 
around the corner, the way it is heading.
    I think we have learned recently that the difference 
between many of our friends and adversaries may be greater than 
we would want to believe. Sometimes it seems to be a matter of 
money, how much, the difference between a buyout and a buyoff. 
But I think we all understand that individual interests make it 
very difficult to have common interests.
    I am not negative about NATO, but I am concerned about how 
we are able to merge interests into common thinking and common 
sharing, because if we are unable to do that then the alliance 
will not work for anyone. If it does not work for us, it does 
not work for anyone; if it does not work for somebody else, 
clearly it will not work for us.
    I have two questions. One is about the niche military. In 
one sense I think it makes a great deal of logic. There is a 
great deal of logic to having many of the countries provide 
some of the niche services. But if you are a nation like the 
United States or Britain and you decide you have to go it 
alone, are you going to be shorthanded when it comes to dealing 
as we are right now in Iraq if you are relying on another 
country to provide some of the military backup, part of the 
services, whether they are specialized, whether it is the 
medical or whatever it may be?
    How do we get around making sure that we do not rely to our 
detriment on that, because if we were relying on France today 
or Germany or Russia, which is not a part, or China, which is 
not a part, but where would we be ultimately?
    The second question, which is part of it, is there is, it 
seems to me, a growing tension between the EU and the United 
States in our relationship. I am concerned that the tension 
that could develop between the EU and NATO, whether it is about 
common trade or common defense, might merge, and can we 
ultimately expect to be the odd man out?
    Secretary Feith. To start, Senator, and I will turn the 
question about the European Union over to Ambassador Grossman. 
But you made a remark about the United States needing to act 
alone, and I think----
    Senator Ben Nelson. Or nearly alone.
    Secretary Feith. I do not believe that we are even nearly 
alone. We have, I believe, well over----
    Senator Ben Nelson. I am not trying to relate it to the 
current situation, but in the future the President said--and I 
think he is absolutely right--that we have reserved the right 
to defend the United States and to go it alone, if necessary. 
What I was suggesting is, if we make that decision at some 
point in the future, will we be disadvantaged by relying on a 
niche common military component?
    Secretary Feith. I think that it is correct that the 
President has to take the position that if we needed to defend 
ourselves and we had to act alone we would act alone to defend 
ourselves. It has never been the case, though, recently that we 
have had to act alone in our own defense. We have always had 
friends and allies who have been willing to participate with us 
in one way or another.
    I would note that in the current fight in Iraq we have 
nearly 60 countries that are contributing in one way or another 
to the coalition effort, providing either access, basing, 
overflight, or force protection, or other types of 
contributions, including combat forces. Of those nearly 60 
countries, we have nearly 50, I believe 49 or so, that are now 
willing to associate themselves publicly with the coalition. So 
there is quite a broad coalition supporting our efforts in 
Iraq.
    Your point about the niche capabilities, I do not think it 
is a problem. If we need to operate and we want to rely on some 
friends to contribute important capabilities--``niche'' perhaps 
is not the best word because perhaps in some people's mind it 
connotes something very narrow. What we are really talking 
about is not a few states with extremely narrow capabilities. 
We are talking about the recognition that not all states in the 
alliance are going to have the full range of capabilities.
    Senator Ben Nelson. I agree with that. They cannot afford 
it, and the common defense ought to make it unnecessary for 
them to do that. But we are either faced with redundancy or 
dependency.
    Secretary Feith. I do not think that is necessarily the 
case. We need to have whatever capabilities the U.S. Armed 
Forces need to be able to defend us under all circumstances, 
including if we had to operate alone. But it is always the case 
that if you have friends and allies that are ready to 
contribute to the effort it is helpful if they have 
capabilities that they can bring to the fight to be able to 
incorporate those capabilities.
    Ambassador Grossman. On the European Union, Senator, I 
think the scenario that you have laid out, if it came to the 
point where the European Union and the United States were on 
opposite sides of important issues in this world, it would be a 
disaster. I believe that the European Union and the United 
States, and Europe and the United States, and NATO and the 
United States are part of the same transatlantic whole.
    As Senator Levin said in his introduction, it is going to 
take good diplomacy, good faith on both sides to make this go 
forward. That is why I in particular am so interested and such 
a big supporter of EU expansion.
    Senator Ben Nelson. I do not disagree with that, but I do 
wonder if we are going to be able to export as much as we are 
able to import, or whether we are going to continue to 
encounter trade barriers under other names, such as genetically 
modified organisms (GMO) and the like.
    Ambassador Grossman. I could not agree with you more. The 
whole argument over GMO food between the United States and the 
European Union has been a hopeless argument and when you think 
of some of the consequences, which is people in Zimbabwe do not 
get enough to eat, I think it is a terrible thing.
    That said, we have to lift up our sights here. I know that 
Bob Zoellick is working with his counterparts in the European 
Union, and why is it not that the European Union and the United 
States are together going to the Doha Round at the World Trade 
Organization and make trade freer and better for all of us? 
These are trillion-dollar trading relationships.
    So no disrespect to any place else in the world, but I 
still think that this transatlantic relationship is the 
platform on which the United States and Europe can do business 
inside of Europe and outside of Europe for the good of both of 
our populations.
    Senator Ben Nelson. I agree with you. I also think that we 
have some friends who are better friends than other friends, 
and it is good to see a few of those here today, too.
    Thank you.
    Ambassador Grossman. Senator Nelson, that is why we would 
like so many of them to be in the European Union.
    Chairman Warner. Thank you, Senator.
    Senator Clinton.
    Senator Clinton. I appreciate the last exchange very much 
because I share Ambassador Grossman's opinion about the 
importance of this alliance and the role that it will play in 
the future, not just what it has done in the past.
    But I want to get back to the point that was made both by 
the chairman and the ranking member about the opportunity for 
some kind of process that leads to modernizing, reforming, 
whatever word we wish to use, with respect to the way NATO 
functions. How exactly are you going to pursue that?
    Ambassador Grossman. Senator Clinton, first let me just say 
that before you came both Doug and I expressed our condolences 
on behalf of the State Department and the Defense Department 
for Senator Moynihan's passing, and I wanted to do that to you 
personally.
    Senator Clinton. Thank you.
    Ambassador Grossman. I will have to consult with Ambassador 
Burns, I will have to consult with others in the 
administration, about what the best mechanism to do that is. 
Senator Levin and others raised this a year or so ago. We 
debated it. You remember at that time what we were concerned 
about was what if countries were not very democratic, how would 
we deal with them. Now we are concerned with countries who 
block----
    Senator Clinton. That are too democratic in our point of 
view, which is what we are hearing today, right.
    Ambassador Grossman. Fair enough, but who block NATO's way 
forward. So I do not mean to avoid your question, but I do not 
want to get locked into a process today that is going to solve 
today's problem, which might not be next year's problem. So I 
committed to Senator Levin that we would take a look at this. I 
will commit to you that we will talk to Ambassador Burns and 
others, and we will meet our obligation to put this into the 
thinking of the alliance.
    Chairman Warner. If I could interject, that is a very 
important question that you raise, Senator. Senator Levin, and 
then I joined him, jointly have made a request for a formal 
communication back from the Department of State to this 
committee once that procedure has been reviewed and a decision 
made as to how or how not to implement it.
    Ambassador Grossman. That is a perfectly fair way to put 
it.
    Senator Clinton. I really appreciate that, because I am a 
very strong supporter of NATO and the Atlantic Alliance on 
which it rests. I am particularly pleased at the expansion that 
has been undertaken. I think it is an opportunity not only for 
us to meet in a new century the goals that Secretary Feith 
described to Senator Pryor, but to think anew about what 
additional opportunities and goals we should be pursuing.
    So I cannot stress enough that this is essential in my view 
to saving the alliance in more than just name. That is not what 
we want.
    Second, I think that the conversation that has gone on, 
particularly with respect to France and to a lesser extent 
Turkey, illustrates the contrary to what the implication might 
have been. In fact, I think it illustrates quite strongly the 
need for us to redouble our efforts to repair whatever damage 
has occurred within the NATO alliance and to redouble our 
efforts to build strong relationships.
    I am particularly concerned about Turkey and I know 
Ambassador Grossman has a special interest, having hosted me 
there. I think I have visited every one of the NATO countries, 
both members-elect and others. With respect to Turkey, I think 
that it is important that our country not send a mixed message 
about democracy.
    It was unfortunate, but I think that the ambassador's 
explanation about a new administration coming in, in a sense, 
one that had frankly been on the outside, one whose 
relationship with the Turkish military was at best an unknown, 
at worst perhaps not even that good--there was a lot of very 
important negotiation to be undertaken with our ally. I think 
it is especially important that we pursue it now with the new 
Government of Turkey. I also hope that we will redouble our 
efforts--and I know this administration has made a very 
concerted effort--on behalf of public diplomacy.
    But if we are going to be a coalition of democracies, we 
cannot just expect the people in those countries to rubber 
stamp whatever their governments proceed to do despite what our 
assessment might be. So I just want to make sure that we are 
supporting the NATO alliance, we are supporting the Atlantic 
relationship, and we are looking for ways to strengthen it 
going forward.
    Ambassador Grossman. May I just say, Senator, I appreciate 
all of those points. Just to say, as Senator Warner did, we 
will endeavor to send you back a report on what we do, but also 
to make the point that Senator Warner just did, that as we 
review this it might be, as Under Secretary Feith testified in 
his statement, that the consensus rule is something we would 
like to keep.
    So I want to make sure that my commitment to you is to 
think about this, to make a proposition, to consult with 
Ambassador Burns. But I do not want to stand up here thinking 
that there is only one way to go here. It may be that we 
continue to believe in this consensus principle, which I 
strongly do.
    Second, I think, Senator, that the question of using what 
has happened over the past few months at NATO as a reason to 
redouble our efforts to strengthen the alliance is exactly 
right. That is what I testified to in my opening statement, is 
that those people who are taking these events as a reason to 
walk away from this alliance I think have it exactly backwards.
    Third, on Turkey--and I certainly remember very well what 
was a fantastic visit for us--we have said every single place 
that we have been asked about this, the first line when any 
Turkish journalist or anybody else asked us is, Turkey is a 
democracy. Turkey has a Parliament. Turkey's Government had to 
decide for itself when to go to its Parliament, how to go to 
its Parliament.
    So we have been very clear about this that, although that 
vote did not go the way we wished and that is to which we have 
testified, that Turkey has a Parliament, Turkey has a 
democracy, and that is what Turkey decided.
    Chairman Warner. Senator, thank you very much for that line 
of questions.
    We will now proceed to do a brief second round. I have 
taken the liberty to place before each of our witnesses a 
letter that I wrote the President of the United States a week 
or so ago. It is not unlike a letter that I wrote to him last 
August. Should any press person desire a copy, my staff or 
others have copies of it.
    [The information referred to follows:]
                                                    March 14, 2003.
President George W. Bush,
The White House,
Washington, DC.
    Dear Mr. President: I would like to commend you on the step you 
took today to give new impetus to the Middle East peace process by 
announcing that it was time to share with Israel and the Palestinians 
the road map to peace that the United States has developed with its 
``Quartet'' partners. This is a welcome and timely initiative, given 
the complex way in which the Middle East conflict, Iraq and the global 
war against terrorism are intertwined.
    The festering hostilities in the Middle East are an enormous human 
tragedy. Along with you, and many others, I refuse to accept that this 
is a conflict without end. You have articulated a vision of an Israeli 
and a Palestinian state living side by side in peace and security. That 
is a bold initiative that deserves strong international support. With 
the Israeli elections concluded, and the imminent confirmation of a 
Palestinian Prime Minister, you are right to refocus international 
attention on the Middle East peace process.
    Mr. President, in August 2002, I wrote to you to propose an idea 
concerning the possibility of offering NATO peacekeepers to help 
implement a cease-fire in the Middle East. I have spoken of this idea 
numerous times on the Senate floor. I am now even more convinced that 
the United States and its NATO partners should consider an additional 
element for the ``road map'' concept: NATO should offer, and I stress 
the word ``offer,'' to provide a peacekeeping force, once a cease-fire 
has been established by the Israeli Government and the Palestinian 
Authority. This NATO force would serve in support of the cease-fire 
mechanisms agreed to by Israel and the Palestinian Authority. The NATO 
offer would have to be willingly accepted by both governments, and it 
in no way should be viewed as a challenge to either side's sovereignty. 
The acceptance of this offer would have to be coupled with a commitment 
by Israel and the Palestinian Authority to cooperate in every way 
possible to permit the peacekeeping mission to succeed.
    I fully recognize that this would not be a risk-free operation for 
the participating NATO forces. But I nonetheless believe that the offer 
of peacekeepers from NATO would have many benefits. First, it would 
demonstrate a strong international commitment to peace in the Middle 
East. Second, it would offer the prospect of a peacekeeping force that 
is ready today. It is highly capable, rapidly deployable, and has a 
proven record of success in the Balkans. A NATO peacekeeping force is 
likely to be acceptable to both parties, given the traditional European 
sympathy for the Palestinian cause and the traditional United States 
support of Israel.
    Third, this would be a worthy post-Cold War mission for NATO in a 
region where NATO member countries have legitimate national security 
interests. It could even be an area of possible collaboration with 
Russia through the NATO-Russia Council. A NATO peacekeeping mission in 
the Middle East would be wholly consistent with the Alliance's new 
Strategic Concept. Approved at the NATO Summit in Washington in April 
1999, the new Strategic Concept envisioned so-called ``out-of-area'' 
operations for NATO.
    Given the fractious debate in NATO over Iraq and the defense of 
Turkey, it would be important to show that NATO can work together to 
make a positive contribution to solving one of the most challenging 
security issues of our day.
    There will be many detractors to the idea of sending NATO 
peacekeepers to the Middle East to help implement a cease-fire. But I 
think there is broad agreement on the imperative of giving new hope to 
the peace process and redoubling diplomatic efforts to keep Israel and 
the Palestinians moving on the road to peace. Peacekeepers coming from 
many NATO nations could give new hope and confidence to the peoples of 
Israel and Palestine that there could soon be an end to the violence 
that overhangs their daily lives.
    Mr. President, I hope that you will receive this idea in the 
constructive spirit in which it is offered.
    With kind regards, I am
            Respectfully,
                                               John Warner,
                                                          Chairman.

    This relates to the future of NATO, which is very much an 
issue before this committee today, and that is Lord Robertson, 
and I think to some extent Ambassador Burns, have indicated 
that they are looking at other challenges that might be brought 
to NATO. I can think of no more pressing challenge at this 
point in time than the Middle East conflict between the people 
of Israel and the Palestinian people. I am not in any way today 
trying to assign blame or equate right or wrong. It is just a 
situation that has persisted for a very long time.
    I, just speaking for myself, do not see steps being taken 
in the future that could help lessen that conflict. In my 
opinion, you cannot initiate the all-important peace process, 
particularly reinvigorate it, I should say, without a 
considerable lessening of this tension and killing on both 
sides. The citizens of these nations are the ones that are 
suffering so greatly.
    So I said very respectfully to the President, and I will 
just read the first paragraph: ``I would like to commend 
you''--and this was written on March 14--``on the step you took 
today to give new impetus to the Middle East peace process by 
announcing that it was time to share with Israel and the 
Palestinians the road map''--that is the coined phrase that you 
utilize in government today--``to peace that the United States 
has developed with its `quartet' partners. This is a welcome 
and timely initiative, given the complex way in which the 
Middle East conflict, Iraq, and the global war against 
terrorism are intertwined.''
    Again, it is my view that the men and women of our Armed 
Forces, coalition Armed Forces, indeed so many of the embassy 
people worldwide, and many others are subject to terrorist 
attack, which could in some instances be motivated by the 
continuum of this conflict. I know that when I recently, with 
my distinguished friend and colleague, visited the region, 
specifically Qatar and Kuwait, at every stop it was brought to 
our attention--I might include Pakistan--by representatives of 
their government at the highest level that this problem had to 
be addressed because it is affecting so many decisions that 
they are trying to make in their country, most of them in 
support of the coalition forces now operating at great risk in 
Iraq.
    So the idea, the concept that--I do not mean to be the sole 
author of this concept or idea; I think others have looked at 
it--is simply that NATO has a proven record of peacekeeping 
capabilities in the Balkans. It is ready to roll. Should 
peacekeepers be brought in, they are the ones that most quickly 
can be implemented.
    So how does one go about it? In no way do we want to impose 
on the sovereign rights of the people of Israel or the people 
of Palestine any decrement in their sovereignty. So it would 
have to be at the invitation of both the Governments of Israel, 
and now with the new prime minister having been designated, I 
presume that he would be the point of contact for such 
invitation among the Palestinian people. It would be my hope he 
would be.
    Now, if NATO examined this as an option--and I have 
actually sat down with Lord Robertson and discussed it with 
him. I have actually brought this up with the NATO ministers 
when they were here in Washington some time ago, and they were 
here at the Senate and I rather boldly got up and, somewhat to 
their surprise, raised this. I have raised it in other fora and 
it seems to me there is interest and support for the concept.
    But the principles are that NATO would have to indicate to 
the respective governments what they could do in return for 
certain guarantees from both governments as to what they could 
do by way of implementing a ceasefire, by way of NATO 
coordinating--I use that word--with their own security forces 
to maintain that ceasefire. So it is a partnership situation.
    But it brings together NATO, to me, addressing a very 
serious crisis which is intertwined so much with other crises 
worldwide, namely that in Iraq, and it also--clearly, through 
history many of the European nations have had a long-time 
relationship with the Palestinian people. We in the United 
States are very proud of a long-time relationship with Israel. 
That relationship again has brought to our attention any number 
of times as we travel the world, those of us here in the Senate 
and others. Indeed, in briefings we have had recently in the 
context of the Iraq situation we have been told that the 
Governments of these various nations that are supporting us are 
watching very closely as to what we will do in conjunction with 
Great Britain and others to ameliorate this crisis.
    But there we would be with the Europeans and the United 
States as partners in the peacekeeping role. Possibly some of 
our uniformed persons would be involved, but I presume a 
preponderance would be drawn from other nations. But again, it 
would show the United States working together with our NATO 
partners.
    So that is just an idea to put on the table. It has been 
raised before by others, but I wish to share it with you this 
morning in the context of this very important and I think an 
excellent hearing, gentlemen, the testimony given by you and 
the responses to the questions.
    Somebody just has to say, let us take a look at it and 
bring it up, as you do so frequently, quietly with the 
respective parties and see whether or not they have any 
interest and whether NATO would have any interest. I think this 
letter just asks for a reasonable exploration as to whether 
NATO would be willing to accept the challenge and whether the 
two countries principally involved would be willing to make 
their commitments and look upon this as a means to help the 
road map get started in the peace process for consideration.
    So I lay that out. If either of you have any comment, I 
would welcome it here this morning.
    Ambassador Grossman. Senator, I think we both will 
obviously take that letter seriously. I am appreciative that 
you would share a letter to the President from you with us. We 
will both commit to you that we will go back and consult with 
our respective Secretaries and treat it absolutely seriously. I 
do not know how else to respond, but I very much appreciate 
your sharing this with us.
    Chairman Warner. I appreciate that.
    Secretary Feith?
    Secretary Feith. Yes, we will be happy to take it back and 
discuss it.
    Chairman Warner. Fine. I thank you very much.
    One further question on the role of missile defense 
cooperation in NATO. Secretary Feith, I know we are engaged in 
ongoing efforts with Italy and Germany to develop defenses 
against short and medium-range ballistic missiles and that the 
United Kingdom has agreed to support the improvement of the 
early warning radars. You know where they are to be located--
steps that will improve our ability to defend against long-
range missiles. We are not only providing for the defense of 
limited attack against this Nation, but indeed those of our 
principal allies.
    Please summarize for us the status of U.S.-NATO cooperation 
in missile defense and how do you assess the willingness of 
NATO governments to participate in this effort? Is there a 
corresponding interest and willingness on the part of European 
aerospace and defense industries to engage with defense 
industries?
    Secretary Feith. Mr. Chairman, this is a subject of great 
importance to us and we, with your strong support, have been 
working on developing missile defenses for the United States 
and cooperation on missile defenses with our allies. The work 
on this subject which has been going on and is quite technical 
is being done by my colleague, Assistant Secretary J.D. Crouch, 
and what I would like to do to give you a meaningful answer 
would be to reply for the record and I could give you the 
details.
    There are a lot of discussions within NATO and there are a 
lot of bilateral discussions that are under way on different 
aspects of this issue. I think it would be probably most useful 
if I replied for the record.
    Chairman Warner. Are you suggesting in your usual 
diplomatic way that you would like to take the question for the 
record?
    Secretary Feith. Yes.
    Chairman Warner. Both of you?
    Ambassador Grossman. Yes, sir.
    [The information referred to follows:]

    Secretary Feith. We have had useful discussions with our NATO 
allies on missile defense over the last year.

        <bullet> In July 2002, the U.S. sent a team to NATO 
        headquarters and 12 NATO capitals to consult with allies on our 
        missile defense policy and program, explain how we are going to 
        implement the President's decision that missile defense will 
        defend allies and friends and deployed forces, and explore 
        opportunities for international participation in U.S. missile 
        defense efforts.
        <bullet> At NATO's Prague Summit in November 2002, allied heads 
        of state and government took a major step forward by endorsing 
        a new missile defense ``Feasibility Study'' to examine options 
        for protecting alliance territory, forces, and population 
        centers against the full range of missile threats. The study is 
        scheduled for completion in the winter of 2004.

                <bullet> A previous theater missile defense feasibility 
                study (recently completed) was limited to examining 
                defenses for allied deployed forces against shorter-
                range ballistic missiles. This new feasibility study is 
                an important step for NATO in that it recognizes the 
                threat posed to alliance territory and population 
                centers by longer-range ballistic missiles.

        <bullet> We have reached agreement to use the appropriate NATO 
        body to coordinate alliance missile defense activities.
        <bullet> In addition to these discussions in NATO, the U.S. is 
        pursuing opportunities for bilateral missile defense 
        arrangements with NATO nations.

    Ambassador Grossman. Developing missile defense systems, which will 
protect deployed forces and eventually populations and territories of 
allies, is a priority for NATO. NATO has recently concluded a 
feasibility study of theater missile defense options to protect 
deployed forces and will be proceeding with follow-up work to consider 
actual deployments of a layered theatre missile defense system. NATO 
heads of state and government at the Prague Summit in November 2002 
also agreed to a new feasibility study to examine options for defense 
of allied populations and territories against all ranges of missiles. 
This NATO work will be consistent with our own evolutionary approach to 
developing missile defenses for the U.S. deployed forces and allies and 
friends that was decided by the President last December.
    In addition to the ongoing work at NATO, we also have a number of 
bilateral missile defense projects ongoing with our NATO allies. 
Furthermore, NATO has initiated a project within the NATO Russia 
Council (NRC) to examine possible areas of cooperation between NATO and 
Russia in the realm of theater missile defense. The U.S. has taken a 
lead role in ensuring that this work, which has become an important 
cornerstone of NATO-Russia cooperation, has a solid conceptual 
foundation and takes advantage of our own bilateral theatre missile 
defense cooperation with the Russians.

    Chairman Warner. That is fine and I will accept that.
    Senator Levin.
    Senator Levin. Thank you, Mr. Chairman.
    I want to pick up where I left off, on the article in The 
Washington Post that suggested there was a difference between 
the State Department and the Defense Department about whether 
the United Nations should at some point take over the civil 
administration of Iraq from the U.S. and then from there it 
would go to the Iraqis. The answer that I got was an answer to 
a different question. My question is not whether the U.N. would 
have a role in humanitarian assistance or some other role, my 
specific question related to The Washington Post report that 
the Pentagon civilian leadership has prepared a post-war plan 
where there is an indefinite U.S.-run civil administration. The 
State Department, on the other hand, proposes that Iraq be 
turned over at an early stage to a U.N. civil administration, 
which would then supervise a gradual turnover to Iraqis as it 
did in Afghanistan, and that would be more palatable to the 
Iraqis.
    So that is what I want you to focus on: Is there a 
difference between the two agencies at this point on that 
specific issue?
    Ambassador Grossman?
    Ambassador Grossman. No, sir, I do not believe so.
    Senator Levin. Secretary Feith.
    Secretary Feith. I do not believe so. I think the idea that 
we have is that we want to put as much responsibility into the 
hands of Iraqis as soon as possible.
    Senator Levin. Is there a role for a U.N. takeover of civil 
administration from the U.S. before that happens in your plan?
    Secretary Feith. If things go well, we should be able to 
have the Iraqis running their own affairs soon and there would 
not be any requirement for a U.N.-run administration of Iraq.
    Senator Levin. You are obviously planning on things going 
well, so you do not foresee a role in the takeover of the civil 
administration of Iraq by the U.N. prior to its being turned 
over?
    Secretary Feith. Our hope is that there would not have to 
be any such debate because the Iraqis would be in a position to 
assume responsibility for their own affairs.
    Senator Levin. Directly from a military administration?
    Secretary Feith. Yes.
    Ambassador Grossman. Yes, absolutely.
    Senator Levin. Now, on your testimony that related, 
Ambassador Grossman, to Ukraine. You made a reference to a 
parallel partnership with Ukraine and NATO and that the 
relationship has faltered due to a radar transfer to Iraq by 
Ukraine. There are elections coming up in Ukraine and it is 
critically important, it seems to me, that those elections be 
democratically run and that all political parties ought to have 
unhindered participation in every facet of the electoral 
process, including membership to the central elections 
commission.
    I am wondering whether or not the United States is going to 
be pressing for that and, if so, specifically how?
    Ambassador Grossman. Yes, certainly we will press for the 
most free and transparent election in the Ukraine. We completed 
a very intensive review of our relations with Ukraine and we 
recognize how important it is, but how much difficulty 
President Kuchma in his person has made for this relationship. 
So we will use the tools that we have through the National 
Endowment of Democracy, through USAID, through our public 
diplomacy, as we do in many places around the world. We cannot 
ensure, but to try to encourage as transparent and democratic 
an election there as possible, as we would elsewhere in the 
world.
    Senator Levin. Sure. But in terms of any future 
participation of Ukraine in NATO and as to whether they adhere 
to democratic values, that would be viewed, I take it, as one 
indicator of whether they adhere to it, whether they run truly 
democratic elections, including access to media?
    Ambassador Grossman. Absolutely.
    Senator Levin. Now, on the NATO Response Force, which again 
I guess it was Ambassador Grossman who spoke of, you indicated 
that NATO leaders have agreed that this force should be ready 
for exercises by October 2004. I am wondering whether or not 
any benchmarks have been established for that force and whether 
or not any benchmarks have been reached in terms of moving 
toward those exercises.
    Now, perhaps Secretary Feith is in a better position to 
answer, but either one of you could perhaps address that. It is 
about 5 months since that statement was made, I believe. Has 
anything happened in the last 5 months to move us toward 
exercises in October 2004 by a NATO Response Force?
    Secretary Feith. Senator Levin, I will have to reply on the 
record to that. I just do not know off the top of my head.
    [The information referred to follows:]

    NATO heads of state and government at their Prague Summit last 
November agreed to create the NATO Response Force (NRF). If implemented 
to the standards proposed by the U.S., the NRF will be militarily 
effective (lethal), technically superior to any envisioned threat, and 
readily deployable on short notice. We also expect it to become the 
focal point of NATO transformation efforts to meet the new threats 
facing the alliance.
    The NRF will consist of a specific, rotational pool of national 
air, land, and maritime forces drawn from the new NATO Force Structure 
and organized under a rotational Combined Joint Task Force Headquarters 
(CJTF HQ). It will plan and train for rapid deployment with assigned 
forces under a CJTF HQ. Its exercise program and joint training would 
focus on those units that will be participating in an upcoming NRF 
rotation so they can be certified as ready for rapid deployment under 
the CJTF's command by the time of their rotation.
    NATO is currently developing a comprehensive concept for the NRF on 
the lines of the U.S. proposal. As a major thrust of this work, the 
NATO Military Committee and NATO military planners have been especially 
active in developing the associated requirements and standards that 
will provide the basis for the Force's preparation, training and 
certification. NATO Defense Ministers will receive a report on all this 
concept development work at their meeting this June. Work is 
progressing toward initial operational capability for training by 
October 2004 and full operational capability by October 2006.

    Senator Levin. Fair enough.
    Then my last question relates to the testimony about 
Russia.
    Chairman Warner. Could I interrupt just to say again how 
much I appreciate the attendance by these distinguished 
witnesses this morning. I think that our membership on this 
committee is of the opinion that we have received very strong 
testimony in support of the President's initiative. I 
anticipate that the Senate will act very favorably and 
hopefully shortly on this matter.
    Ambassador Grossman. Thank you, Senator.
    Secretary Feith. Thank you, Mr. Chairman.
    Senator Levin [presiding]. Thanks.
    My final question then relates to NATO-Russia relations. 
There was established, as you indicated, I believe, a NATO-
Russia Council at the Rome Summit in May 2002. All of the NATO 
allies and Russia agreed to identify and pursue opportunities 
for joint action ``at 20'' as equal partners. Can you, either 
or both of you, tell us how that new council is working out? 
Can you give us some examples of joint actions that have been 
carried out?
    Ambassador Grossman. Yes, sir. ``So far, so good'' is what 
I would say. As I testified to another Senator, just to make 
clear that this ``at 20'' arrangement is not a back door to 
NATO membership for Russia. It is not a veto over what NATO 
could do.
    But I think actually the NATO-Russia Council has met a 
number of its expectations. It is working today in areas of 
combating terrorism. There is a joint working group on the 
possibilities of peacekeeping. There have been a number of 
exercises, Senator, and I will get you the number, in the areas 
of civil emergency planning, which have worked actually quite 
well and people have been satisfied with, and groups looking at 
the possibilities of working together on nonproliferation.
    [The information referred to follows:]

    One year into its existence, the NATO-Russia Council (NRC) has been 
a success in deepening cooperative relations between allies and Russia. 
The uniform praise for the progress made in the NATO-Russia 
relationship, including from Russia, demonstrates that we are on the 
right track with our approach to the NRC; a focus on practical projects 
that builds trust and that furthers cooperation.
    A few samples of the progress include: a civil emergency exercise 
in Noginsk, Russia, in September 2002, which brought together over 850 
emergency responders and observers from 30 allied and partner countries 
and tested the ability of NATO and Russia to act together in the event 
of a terrorist attack on a chemical facility; a framework agreement on 
submarine search and rescue; completion of joint threat assessments for 
WMD proliferation and Balkans peacekeeping, as well as two terrorist 
threat assessments; and agreement on generic political guidance for 
future peacekeeping operations and the start of planning for joint 
peacekeeping exercises.
    Continued military-to-military cooperation and interoperability 
between NATO and Russian forces is the next key step in deepening the 
NATO-Russia relationship. Following upon the planned exchanges and 
seminars that represent the first phase of the interoperability 
project, we plan to pursue tabletop and field exercises to establish a 
productive tradition of working and learning together on the ground.

    Senator Levin. Secretary Feith, do you have anything to add 
to that?
    Secretary Feith. Yes, sir. The NATO-Russia Council adopted 
a work program for 2003 that includes work in chemical, 
biological, radiological, and nuclear preparedness, combating 
terrorism, military-to-military cooperation, and, as was just 
said, the civil emergency preparedness exercises. There was a 
civil emergency planning exercise in Noginsk that has already 
taken place and there was a concept paper done on peacekeeping 
operations. There has also been work on terrorist threat 
assessments and missile defense.
    Senator Levin. Thank you.
    I just picked up when I came back on the end of a comment 
you were making, Ambassador Grossman, about the response to 
this committee about the consensus rule and making it clear 
that you are going to let us know whether or not there is going 
to be formal consideration proposed of that rule, and that does 
not mean that you personally, for instance, favor any change in 
that rule, basically.
    Ambassador Grossman. That is correct, yes, sir.
    Senator Levin. I just wanted to be clear that there are two 
questions that you will get back to us on relative to the NATO 
charter. One is the consensus rule, but the other one is the 
lack of the ability to suspend a member who is no longer in 
compliance with the fundamentals in the charter, obedience to 
the rule of law, free markets, and democratic values, and so 
forth. So that you will get back to us on both of those.
    Ambassador Grossman. Yes, sir.
    [The information referred to follows:]

    Yes, sir. Immediately after the hearing, I will consult with 
Ambassador Burns and we will propose a way to raise this at NATO. After 
Ambassador Burns and I have spoken, I will report to you on both 
issues.

    Senator Levin. Thank you both for your testimony. I join 
our chairman in saying that this is a very valuable hearing, 
but also that I think it is all of our hopes that the matter of 
the accession to NATO and the treaty ratification come before 
the Senate as quickly as possible. I am sure that some of the 
issues that we have talked about here will be raised during 
that debate, even though they are not directed at the new 
members, they are directed at the principle of it. So that your 
answers to those questions should come before that debate 
begins, because that will help us in the debate.
    Ambassador Grossman. I understand that, sir.
    Senator Levin. Thank you both, and we will stand adjourned.
    [Question for the record with answer supplied follows:]

               Question Submitted by Senator Bill Nelson

                         CAPTAIN SCOTT SPEICHER

    1. Senator Bill Nelson. Secretary Feith, what are you doing to 
plan, organize, and manage the investigation necessary to resolve the 
fate of Captain Scott Speicher in postwar Iraq? I would appreciate both 
classified and unclassified answers to this question.
    Secretary Feith. The Defense POW/Missing Personnel Office (DPMO) is 
responsible for coordinating the U.S. Government effort to resolve the 
fate of Captain Michael Scott Speicher in postwar Iraq. DPMO leads the 
interagency effort to account to Captain Speicher, to include planning, 
organizing, and managing the ongoing search.

    [Whereupon, at 12:18 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
